No. 19-___

IN THE

DINÉ CITIZENS AGAINST RUINING OUR ENVIRONMENT;
SAN JUAN CITIZENS ALLIANCE; AMIGOS BRAVOS; SIERRA
CLUB; CENTER FOR BIOLOGICAL DIVERSITY,
Petitioners,
v.
NAVAJO TRANSITIONAL ENERGY CO. LLC;
ARIZONA PUBLIC SERVICE CO.; BUREAU OF INDIAN
AFFAIRS; UNITED STATES DEPARTMENT OF THE
INTERIOR; UNITED STATES OFFICE OF SURFACE MINING
RECLAMATION AND ENFORCEMENT; UNITED STATES
BUREAU OF LAND MANAGEMENT; DAVID BERNHARDT, IN
HIS OFFICIAL CAPACITY AS SECRETARY OF THE INTERIOR;
UNITED STATES FISH AND WILDLIFE SERVICE,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Ninth Circuit
PETITION FOR A WRIT OF CERTIORARI

Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com

QUESTION PRESENTED
Whether Federal Rule of Civil Procedure 19 requires dismissal of an Administrative Procedure Act
action challenging a federal agency’s compliance with
statutory requirements governing federal agency decisions, for failure to join a non-federal entity that would
benefit from the challenged agency action and cannot
be joined without consent.

ii
RULE 29.6 STATEMENT
Petitioners are nonprofit organizations and have
no parent corporations. No publicly held corporation
holds stock in any of the petitioners.

iii
RELATED PROCEEDINGS
United States District Court (D. Ariz.):
Diné Citizens Against Ruining Our Environment
v. Bureau of Indian Affairs, No. CV-16-08077-PCTSPL (Sept. 11, 2017)
United States Court of Appeals (9th Cir.):
Diné Citizens Against Ruining Our Environment
v. Bureau of Indian Affairs, No. 17-17320 (July 29,
2019)

iv
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
RULE 29.6 STATEMENT ........................................... ii
RELATED PROCEEDINGS....................................... iii
TABLE OF AUTHORITIES ........................................ v
PETITION FOR A WRIT OF CERTIORARI .............. 1
OPINIONS BELOW .................................................... 1
JURISDICTION........................................................... 1
RELEVANT RULE ...................................................... 1
STATEMENT............................................................... 3
REASONS FOR GRANTING THE WRIT ................ 12
I.

The Decision Below Directly Conflicts
With Decisions Of Multiple Federal Courts
Of Appeals ........................................................... 13

II. The Question Presented Warrants This
Court’s Immediate Review .................................. 25
CONCLUSION .......................................................... 31

v
TABLE OF AUTHORITIES
Cases
Abbott Labs. v. Gardner,
387 U.S. 136 (1967) ................................................ 27
Cachil Dehe Band of Wintun Indians of the
Colusa Indian Cmty. v. California,
547 F.3d 962 (9th Cir. 2008) .................................. 15
Citizen Potawatomi Nation v. Norton,
248 F.3d 993 (10th Cir. 2001) .......................... 20, 21
Hoopa Valley Tribe v. FERC,
913 F.3d 1099 (D.C. Cir. 2019) .............................. 22
Jeffries v. Ga. Residential Fin. Auth.,
678 F.2d 919 (11th Cir. 1982) .......................... 24, 25
Kansas v. United States,
249 F.3d 1213 (10th Cir. 2001) ........................ 18, 19
Mach Mining LLC v. EEOC,
135 S. Ct. 1645 (2015) ............................................ 28
Makah Indian Tribe v. Verity,
910 F.2d 555 (9th Cir. 1990) .................................. 15
Manygoats v. Kleppe,
558 F.2d 556 (10th Cir. 1977) .......................... 19, 20
Motor Vehicle Mfrs. Ass’n of the U.S., Inc. v.
State Farm Mut. Auto. Ins. Co.,
463 U.S. 29 (1983) .................................................. 29
N. Alaska Envtl. Ctr. v. Hodel,
803 F.2d 466 (9th Cir. 1986) .................................. 15
Nat. Res. Def. Council, Inc. v.
Tenn. Valley Auth.,
340 F. Supp. 400 (S.D.N.Y. 1971) .......................... 29
Nat’l Licorice Co. v. NLRB,
309 U.S. 350 (1940) ........................................ passim

vi
Ramah Navajo Sch. Bd., Inc. v. Babbitt,
87 F.3d 1338 (D.C. Cir. 1996) ................................ 21
S. Utah Wilderness All. v. Kempthorne,
525 F.3d 966 (10th Cir. 2008) ................................ 20
Sac & Fox Nation of Missouri v. Norton,
240 F.3d 1250 (10th Cir. 2001) .............................. 19
Sch. Dist. of Pontiac v.
Sec’y of the U.S. Dep’t of Educ.,
584 F.3d 253 (6th Cir. 2009) ...................... 23, 24, 30
Shermoen v. United States,
982 F.2d 1312 (9th Cir. 1992) ................................ 27
Thomas v. United States,
189 F.3d 662 (7th Cir. 1999) ...................... 17, 18, 30
Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv.,
139 S. Ct. 361 (2018) ........................................ 27, 28
Statutes
Administrative Procedure Act,
5 U.S.C. § 701 et seq. ...................................... passim
5 U.S.C. § 701(b)(1) ............................................... 3
5 U.S.C. § 702 ........................................................ 3
5 U.S.C. § 706 ........................................................ 3
5 U.S.C. § 706(2) .................................................... 3
Endangered Species Act of 1973,
16 U.S.C. § 1531 et seq. .................................. passim
16 U.S.C. § 1531(b) .............................................. 27
Indian Gaming Regulatory Act,
25 U.S.C. § 2701 et seq. .......................................... 18

vii
National Environmental Policy Act of 1969,
42 U.S.C. § 4321 et seq. .................................. passim
42 U.S.C. § 4331(b)(2) ......................................... 26
42 U.S.C. § 4331(c) .............................................. 26
No Child Left Behind Act of 2001,
Pub. L. No. 107-110, 115 Stat. 1425 ...................... 23
Surface Mining Control and Reclamation Act of
1977, 30 U.S.C. § 1201 et seq. .................................. 7
28 U.S.C. § 1254(1) ...................................................... 1
28 U.S.C. § 1391(e)(1) ................................................ 23
Rules
Fed. R. App. P. 15 ...................................................... 22
Fed. R. Civ. P. 12(b)(7)................................................. 9
Fed. R. Civ. P. 19 ............................................... passim
Fed. R. Civ. P. 19(a) ..................................................... 4
Fed. R. Civ. P. 19(a)(1)(B) ...................................... 9, 29
Fed. R. Civ. P. 19(a)(1)(B)(i) .................................. 4, 29
Fed. R. Civ. P. 19(b) ........................................... passim
Other Authorities
Congressional Research Serv., R42346,
Federal Land Ownership: Overview and Data
(Feb. 21, 2020), https://fas.org/sgp/crs/misc/
R42346.pdf.............................................................. 13
Office of Surface Mining Reclamation & Enf’t,
Final Environmental Impact Statement for the
Four Corners Power Plant and Navajo Mine
Energy Project (May 2015),
https://www.wrcc.osmre.gov/initiatives/
fourCorners/documents/FinalEIS/Section%
204.2%20-%20Climate%20Change.pdf ................... 7

viii
U.S. Dep’t of Agric., Forest Service National
Resource Guide to American Indian and
Alaska Native Relations (Apr. 1997),
https://www.fs.fed.us/spf/tribalrelations/
documents/publications/national-resourceguide-ver2.pdf......................................................... 13
U.S. Dep’t of Health & Human Servs.,
Office of Minority Health, Profile:
American Indian/Alaska Native,
https://minorityhealth.hhs.gov/omh/
browse.aspx?lvl=3&lvlID=62 (
last modified Mar. 28, 2018) ............................ 25, 26

PETITION FOR A WRIT OF CERTIORARI
Petitioners Diné Citizens Against Ruining Our
Environment, San Juan Citizens Alliance, Amigos
Bravos, Sierra Club, and Center for Biological Diversity respectfully petition for a writ of certiorari to review the judgment of the United States Court of Appeals for the Ninth Circuit.
OPINIONS BELOW
The opinion of the court of appeals (Pet. App. 1a33a) is reported at 932 F.3d 843. The opinion of the
district court (Pet. App. 34a-43a) is not reported but is
available at 2017 WL 4277133.
JURISDICTION
The judgment of the court of appeals was entered
on July 29, 2019. Pet. App. 1a. A timely petition for
rehearing was denied on December 11, 2019. Pet. App.
44a-45a. On February 22, 2020, Justice Kagan extended the time within which to file a petition for a
writ of certiorari to and including March 24, 2020.
No. 19A934. This Court has jurisdiction pursuant to
28 U.S.C. § 1254(1).
RELEVANT RULE
Federal Rule of Civil Procedure 19 provides in relevant part:
(a) PERSONS REQUIRED TO BE JOINED IF FEASIBLE.
(1) Required Party. A person who is subject to
service of process and whose joinder will not deprive the court of subject-matter jurisdiction must
be joined as a party if:

2
(A) in that person’s absence, the court
cannot accord complete relief among existing
parties; or
(B) that person claims an interest relating to the subject of the action and is so situated that disposing of the action in the person’s absence may:
(i) as a practical matter impair or impede the person’s ability to protect the interest; or
(ii) leave an existing party subject to
a substantial risk of incurring double,
multiple, or otherwise inconsistent obligations because of the interest.
***
(b) WHEN JOINDER IS NOT FEASIBLE. If a person who
is required to be joined if feasible cannot be joined, the
court must determine whether, in equity and good conscience, the action should proceed among the existing
parties or should be dismissed. The factors for the
court to consider include:
(1) the extent to which a judgment rendered
in the person’s absence might prejudice that person or the existing parties;
(2) the extent to which any prejudice could be
lessened or avoided by:
(A) protective provisions in the judgment;
(B) shaping the relief; or
(C) other measures;
(3) whether a judgment rendered in the person’s absence would be adequate; and

3
(4) whether the plaintiff would have an adequate remedy if the action were dismissed for nonjoinder.
***
STATEMENT
Through this suit, petitioners seek to enforce obligations imposed on federal agencies by the National
Environmental Policy Act of 1969 (NEPA), 42 U.S.C.
§ 4321 et seq., and the Endangered Species Act of 1973
(ESA), 16 U.S.C. § 1531 et seq. Petitioners filed suit
against all relevant federal agencies and officials,
seeking judicial review of federal agency action and requesting prospective declaratory and injunctive relief
against those agencies and officials, pursuant to the
Administrative Procedure Act (APA), 5 U.S.C. § 701
et seq. The district court and court of appeals held that
a non-federal entity was a required party that could
not be joined—and that the suit must be dismissed because it could not proceed without the non-federal entity.
1. a. The APA entitles an entity that is “adversely affected or aggrieved by agency action within
the meaning of a relevant statute” to obtain judicial
review of such action and to seek non-monetary relief
against the United States, its agencies, and its officers.
5 U.S.C. § 702. Petitioners filed this suit pursuant to
5 U.S.C. § 706(2), which authorizes courts to “hold unlawful and set aside agency action, findings, and conclusions found to be,” inter alia, “arbitrary, capricious,
an abuse of discretion, or otherwise not in accordance
with law.” The APA does not provide a cause of action
or authorize any relief against non-federal actors. Id.
§§ 702, 706; see id. § 701(b)(1) (defining “agency”).

4
b. Federal Rule of Civil Procedure 19 governs
joinder of non-parties. The Rule defines the types of
non-parties that must be joined to a suit if possible and
the conditions under which a suit cannot proceed if
joinder of such a party is not feasible.1 Rule 19(a) describes necessary parties, providing that “[a] person
who is subject to service of process and whose joinder
will not deprive the court of subject-matter jurisdiction
must be joined as a party if,” inter alia, “that person
claims an interest relating to the subject of the action
and is so situated that disposing of the action in the
person’s absence may,” inter alia, “as a practical matter impair or impede the person’s ability to protect the
interest.” Fed. R. Civ. P. 19(a)(1)(B)(i). Rule 19(b) dictates the consequences when a necessary party cannot
be joined, providing that, “[i]f a person who is required
to be joined if feasible cannot be joined, the court must
determine whether, in equity and good conscience, the
action should proceed among the existing parties or
should be dismissed,” in light of a non-exhaustive list
of enumerated factors. Fed. R. Civ. P. 19(b).
c. Recognizing the tension between compulsoryjoinder rules and public administrative law, this Court
long ago recognized an exception—the so-called public1
The category of non-parties who must be joined if feasible
was formerly referred to as “necessary parties”; the subset of necessary parties without whom a suit may not proceed where joinder is not feasible was formerly referred to as “indispensable parties.” The text of the Rule now refers to the former category as
“[r]equired [p]art[ies]” and describes the consequence of dismissal
as to the latter category without designating them as “indispensable.” Fed. R. Civ. P. 19. As the notes of revision make clear,
the 2007 revision in the text was not meant to be substantive.
Pet. App. 13a n.5. For ease of reference, we sometimes use the
old terms in this petition.

5
rights exception—to traditional joinder rules that
would require dismissing a suit in the absence of an
indispensable party. In National Licorice Co. v. National Labor Relations Board, the Court found an exception to such mandatory dismissal “[i]n a proceeding” that is “narrowly restricted to the protection and
enforcement of public rights.” 309 U.S. 350, 363
(1940). In such cases, the Court explained, “there is
little scope or need for the traditional rules governing
the joinder of parties in litigation determining private
rights.” Ibid. The principles of the public-rights exception are now embodied in Rule 19(b)’s command
that a suit should proceed without a required party
when “equity and good conscience” dictate. Fed. R.
Civ. P. 19(b).
2. a. The Navajo Mine is a sprawling 33,000acre coal strip mine located in New Mexico on tribal
trust lands of the Navajo Nation, a federally recognized Indian tribe with territory spanning Arizona,
Utah, and New Mexico. Pet. App. 6a. The Mine produces coal exclusively for the Four Corners Power
Plant, which burns the coal to generate electricity. Id.
at 7a. Most of the electricity generated is transmitted
to Arizona, primarily to Phoenix. See C.A. E.R. 39-40.
The Power Plant is owned by several large utility companies, including respondent Arizona Public Service
Co. (APS), which operates the Power Plant on behalf
of all co-owners pursuant to a decades-old lease agreement with the Navajo Nation. Pet. App. 7a. The Navajo Nation has authorized easements for rights-of-way
to the Power Plant over Navajo lands; both the Navajo
Nation and the Hopi Tribe authorize rights-of-way for
power transmission lines on tribal lands. Ibid. The
Mine is now owned by respondent Navajo Transitional

6
Energy Company (NTEC), a Navajo corporation created for the purpose of purchasing the Mine from its
previous owner. Id. at 6a. The Mine and Power Plant
provide significant revenue to the Navajo Nation. Id.
at 7a.
The Mine and Power Plant have operated since
the 1960s. Pet. App. 6a. Together they are a major
source of pollution in the southwest United States, in
the country as a whole, and in the Western Hemisphere. Residents of the “Four Corners” region (which
includes parts of Arizona, Colorado, New Mexico, and
Utah, as well as multiple Indian reservations), where
the Mine and Power Plant are located, suffer elevated
levels of lung disease and severely compromised public
health. C.A. E.R. 14, 38, 46-47. Multiple native species of fish are endangered and on the brink of extinction because the San Juan River in which they live is
polluted with mercury and selenium from the Power
Plant. In addition, the Plant’s withdrawal of water
from the River directly and indirectly harms those species. Id. at 14-15, 36, 40-43. The Power Plant has long
been one of the largest sources of air pollution in the
United States. Id. at 38. The enormous pollution
plume from the Power Plant was one of the first manmade phenomena observed by astronauts from outer
space. Ibid. Together, the Power Plant and the neighboring San Juan Generating Station coal-fired plant
constitute the largest source of air pollution in the
Western Hemisphere. Ibid.
Pollution produced by the coal complex imposes
immense monetary costs on the public, in addition to
the public-health and environmental costs. According
to estimates from federal respondent Office of Surface
Mining Reclamation and Enforcement (OSM), the

7
cumulative social cost (which measures, inter alia, expected effects on agriculture, human health, ecosystems, and property values) from carbon emissions resulting from the complex will be between $4.8 and
$46.3 billion over the life of the permits at issue here.2
That estimate does not include costs from other types
of pollution emitted from the complex.
b. The Mine and Power Plant, along with the associated network of transmission lines, operate pursuant to various permits from federal agencies, including
a surface mining permit issued by OSM, pursuant to
the Surface Mining Control and Reclamation Act of
1977, 30 U.S.C. § 1201 et seq. Pet. App. 6a-7a. In
2011, APS and the Navajo Nation amended the lease
governing operation of the Power Plant. Id. at 7a-8a.
The changes extended the term of the lease through
2041. Id. at 7a. BHP Billiton (the owner of the mine
at the time) sought a renewal of the existing surface
mining permit for the Mine and sought a new surface
mining permit that would authorize mining activities
in a new area within the larger area covered by the
mine lease. Id. at 7a-8a.
The requests to renew and expand the mining operations and to extend the Power Plant lease and
rights-of-way required approval of several bureaus
within the Department of the Interior. Pet. App. 8a9a. Governing law required the federal agencies to
prepare an environmental impact statement pursuant

2

OSM, Final Environmental Impact Statement for the Four
Corners Power Plant and Navajo Mine Energy Project 4.2-25 to
4.2-27 & tbl. 4.2-18b (May 2015), https://www.wrcc.osmre.gov/initiatives/fourCorners/documents/FinalEIS/Section%204.2%20-%
20Climate%20Change.pdf.

8
to NEPA and required the Fish and Wildlife Service to
prepare a biological opinion pursuant to the ESA, to
ensure that the action would not jeopardize the continued existence of listed species. Ibid. In July 2015, the
agencies issued a Record of Decision, and the Deputy
Secretary of the Interior then approved the permit renewal and extension. Id. at 9a.
3. In 2016, petitioners—a coalition of tribal, regional, and national conservation organizations whose
members are harmed by pollution from the coal complex and adverse effects on the endangered species—
filed this action against the federal agencies and officials responsible for approving the permit renewal and
extension, alleging that various agency actions violated NEPA and the ESA. Pet. App. 9a-10a. Petitioners filed the suit pursuant to the APA provisions that
authorize a federal district court to review final agency
action and to grant non-monetary relief when an action is found to be, inter alia, arbitrary, capricious, or
otherwise contrary to law. See C.A. E.R. 18. Petitioners also invoked the provision of the ESA authorizing
citizen suits. Ibid. Petitioners sought only declaratory
and injunctive relief against the federal defendants,
including an order remanding the matter to the responsible agencies for further analysis required by the
ESA and by NEPA. Pet. App. 10a. Petitioners did not
seek to cancel or modify any contract to which either
NTEC or the Navajo Nation is a party. C.A. E.R. 6869.
After the federal defendants filed an answer
(which included a request to dismiss the action), APS
intervened. Pet. App. 10a. NTEC also sought to intervene for the limited purpose of filing a motion to dismiss pursuant to Federal Rules of Civil Procedure

9
12(b)(7) and 19. Id. at 10a-11a. The district court
granted NTEC’s motion to intervene as of right because NTEC now owns the Mine. Id. at 11a. NTEC
then filed a motion to dismiss petitioners’ claims, arguing that it is a required party due to its economic
interest in the Mine, that it cannot be joined because
it has tribal sovereign immunity, and that petitioners’
action could not proceed in the absence of NTEC.
Ibid.; id. at 36a. Although dismissal of the case would
have left the challenged agency actions in place, the
federal defendants joined petitioners in opposing the
motion to dismiss, arguing that the federal government is the only required party in an action seeking to
enforce federal compliance with NEPA and the ESA.
Id. at 11a.
The district court granted NTEC’s motion to dismiss. Pet. App. 34a-43a. The court concluded that
NTEC has a legally protected interest in the subject
matter of the suit under Rule 19(a)(1)(B), which defines the parties that are “[r]equired” parties who
must be joined if feasible. Id. at 36a; Fed. R. Civ. P.
19(a)(1)(B). The court acknowledged that the federal
defendants and NTEC “both advocate for defending
Federal Defendants’ decisions which provide for the
continued operation of the Navajo Mine and the”
Power Plant. Pet. App. 39a. The court nevertheless
held that the federal defendants could not adequately
represent NTEC’s interest in the litigation because
they might someday offer different arguments in defense of the challenged federal actions. Ibid. And the
court concluded that NTEC could not feasibly be joined
as a party due to its tribal sovereign immunity. Id. at
39a-41a. Acknowledging that Rule 19 allows a suit to
proceed without a required party when a court

10
determines that, “in equity and good conscience, the
action should proceed among the existing parties,”
Fed. R. Civ. P. 19(b), the district court concluded that
the suit could not proceed without NTEC because of
NTEC’s tribal sovereign immunity. Pet. App. 41a-42a.
4. Petitioners appealed, and the Ninth Circuit
affirmed. Pet. App. 1a-33a. On appeal, the federal defendants participated as amicus curiae supporting petitioners’ request that the court of appeals reverse the
district court’s dismissal order. Id. at 28a n.8.
The court of appeals agreed with the district court
that NTEC has a legally protected interest in the subject matter of this suit. Pet. App. 13a-18a. Although
the court of appeals recognized both that a legally protected interest must be “more than a financial stake,”
id. at 14a (citation omitted), and that “an absent party
has no legally protected interest at stake in a suit
seeking only to enforce compliance with administrative procedures,” id. at 15a, the court concluded that
NTEC’s interest in the lease renewal and extension is
legally protected and could be impaired because the
suit “may have retroactive effects on approvals already granted for mining operations,” id. at 17a.
Distinguishing this case from earlier cases in
which the court had held that a party that stands to
benefit from a federal agency action is not a required
party in a suit to challenge the federal agency’s compliance with procedural requirements, the court of appeals held that “an absent party may have a legally
protected interest at stake in procedural claims where
the effect of a plaintiff’s successful suit would be to impair a right already granted.” Pet. App. 15a; see id. at
15a-18a. The court thus held that a party that stands
to benefit from “already approved” agency action, id.

11
at 15a n.6, has a legally protected interest in any action challenging the agency’s compliance with procedural requirements in approving the action. Applying
that principle to this case, the court concluded that
NTEC is a required party because of its financial stake
in the already-approved mining operations, which
could be delayed or disrupted if petitioners succeed in
their procedural claims. Id. at 17a-18a.
The court of appeals also held that no existing
party adequately represents NTEC’s interest in the
litigation. Pet. App. 18a-23a. The court acknowledged
that the federal defendants shared NTEC’s interest in
defending the challenged agency action, but concluded
that that shared interest was insufficient because of
the government’s “overriding interest . . . in complying
with environmental laws such as NEPA and the ESA.”
Id. at 21a. The court also held that NTEC could not
feasibly be joined in the suit because, as an arm of the
Navajo Nation, it enjoys tribal sovereign immunity.
Id. at 23a-24a.
Having thus determined that NTEC is a required
party that cannot feasibly be joined, the court of appeals turned to the question “whether, in equity and
good conscience, the action should proceed among the
existing parties or should be dismissed.” Pet. App. 25a
(quoting Fed. R. Civ. P. 19(b)). Considering the factors
enumerated in the Rule, the court of appeals affirmed
the district court’s conclusion that the suit could not
proceed without NTEC. Id. at 25a-33a. The court of
appeals rejected the request from petitioners and the
United States to apply the so-called “public-rights” exception, which permits litigation to proceed without a
required party when the suit seeks to vindicate a public right. Id. at 28a-33a; see Nat’l Licorice, supra. The

12
court acknowledged that petitioners “seek only a renewed NEPA and ESA process,” but concluded that,
because “the implication of their claims is that Federal
Defendants should not have approved the mining activities in their exact form,” the suit “threatens
NTEC’s legal entitlements.” Pet. App. 33a.
5. Petitioners filed a timely petition for rehearing en banc. After calling for a response, the Ninth
Circuit denied the petition on December 11, 2019. Pet.
App. 44a-45a.
REASONS FOR GRANTING THE WRIT
The courts of appeals are divided about an important and recurring question of federal administrative and procedural law. In the Ninth Circuit, private
litigants are foreclosed from challenging federal
agency action that benefits entities that cannot be
made parties to an APA action or other actions seeking
relief only against the federal government. That
means that federal agencies can ignore requirements
of environmental laws like the National Environmental Policy Act and the Endangered Species Act when
approving activities on tribal land or undertaken by
tribal entities—because such activities benefit Indian
tribes or tribally owned businesses that cannot be
joined because of tribal sovereign immunity. Even the
United States, which could rely on the Ninth Circuit’s
rule to avoid legal challenges to its actions on tribal
lands, does not welcome that regime. To the contrary,
the United States opposed NTEC’s motion to dismiss
under Federal Rule of Civil Procedure 19, even while
pursuing its own substantive request to dismiss the
action. See Pet. C.A. Br. 7; Pet. App. 28a n.8.

13
This Court’s immediate intervention is warranted
because the existing circuit split involves jurisdictions
comprising a vast majority of federally owned and Indian lands. The Ninth Circuit’s decision directly conflicts with decisions of at least three other courts of appeals, including the Tenth and D.C. Circuits. More
than 74 percent of federally owned land is located in
the Ninth Circuit, and more than 90 percent of federally owned land is located in the combined territory
covered by the Ninth and Tenth Circuits. Congressional Research Serv., R42346, Federal Land Ownership: Overview and Data 7-9 tbl. 1, 20 tbl. 5 (Feb. 21,
2020).3 In addition, nearly all Indian land is found in
the territory covered by the Ninth and Tenth Circuits.
U.S. Dep’t of Agric., Forest Service National Resource
Guide to American Indian and Alaska Native Relations 6, D-3 tbl. 2 (Apr. 1997). 4 Because most APA
suits can be filed in the District of Columbia, which is
home to many federal agencies, a conflict about the application of NEPA and the ESA that involves the
Ninth, Tenth, and D.C. Circuits need not deepen any
further to warrant this Court’s review.
I.

The Decision Below Directly Conflicts With
Decisions Of Multiple Federal Courts Of
Appeals.

Petitioners filed this action against federal agencies and officials, seeking to compel compliance with
federal environmental laws that govern the actions of
federal agencies only. Petitioners did not seek to

3
4

https://fas.org/sgp/crs/misc/R42346.pdf.

https://www.fs.fed.us/spf/tribalrelations/documents/publications/national-resource-guide-ver2.pdf.

14
cancel or to modify any contract; petitioners did not
seek to compel any particular agency action with respect to the permit applications at issue. Petitioners
seek only declaratory and injunctive relief against federal defendants, compelling compliance with requirements of federal environmental laws. If petitioners
had filed this suit in the Tenth or D.C. Circuit, the suit
would have proceeded to consideration of the federal
defendants’ substantive request to dismiss the action
and, potentially, beyond. Instead, the Ninth Circuit
dismissed the action—over the objection of the federal
defendants—on the ground that the suit cannot proceed without NTEC, a tribal entity that enjoys tribal
sovereign immunity. But petitioners seek to enforce
federal statutory obligations that apply only to federal
entities. Petitioners seek no relief against NTEC—
and any interest NTEC has in the lower courts’ upholding the challenged federal actions overlaps completely with the federal defendants’ own interest in the
same. This Court should grant this petition to resolve
the circuit conflict on this important and recurring issue.
A. The Ninth Circuit’s decision is a departure
from ordinary rules applicable to actions challenging a
federal agency’s compliance with statutory requirements governing its decisional processes. Such suits,
which are ordinarily filed pursuant to the APA, seek
relief only from federal agencies and officials; they do
not seek to alter any contractual rights of absent parties; and they do not (and could not) seek to impose
obligations on any absent non-federal entities. Such
suits, moreover, seek to enforce important public
rights, including compliance with nationwide rules designed to protect our environment and endangered

15
species. The Ninth Circuit recognized as much, noting
that petitioners’ APA action is a challenge “to Federal
Defendants’ NEPA and ESA processes (rather than to
anything that NTEC has done).” Pet. App. 17a. But
the court held that “an absent party may have a legally
protected interest at stake in procedural claims where
the effect of a plaintiff’s successful suit would be to impair a right already granted.” Id. at 15a. The court
placed dispositive weight on the fact that approval for
the mining operations at issue had “already [been]
granted” when the suit was filed. Ibid. The court thus
distinguished this case from other cases in which it
had held that a party that stands to benefit from federal agency action is not an indispensable party in a
suit challenging agency action when the action is
merely “pending” (but not yet approved) or where the
plaintiff seeks prospective relief governing future
agency actions.
Id. at 15a-18a (distinguishing
N. Alaska Envtl. Ctr. v. Hodel, 803 F.2d 466, 469 (9th
Cir. 1986); Makah Indian Tribe v. Verity, 910 F.2d 555,
559 (9th Cir. 1990); Cachil Dehe Band of Wintun Indians of the Colusa Indian Cmty. v. California, 547 F.3d
962, 974 (9th Cir. 2008)).
Although the Ninth Circuit recognized that NTEC
and the federal defendants have the same interest in
having the challenged agency actions upheld, the
court held that the federal defendants cannot adequately represent NTEC’s interest because NTEC and
the federal government would derive different benefits
from a successful defense of the challenged agency actions. Pet. App. 22a (“[W]hile Federal Defendants
have an interest in defending their own analyses that
formed the basis of the approvals at issue, here they
do not share an interest in the outcome of the

16
approvals—the continued operation of the Mine and
Power Plant.”). The Ninth Circuit did not identify any
argument in defense of the challenged actions that
NTEC would make but the federal defendants would
not; indeed, such an argument is difficult even to hypothesize because the federal defendants have all the
information and expertise relevant to petitioners’ procedural claims challenging the federal defendants’ actions.
Finally, the Ninth Circuit declined to apply the
principles of this Court’s public-rights exception to ordinary joinder rules or to otherwise hold that, “in equity and good conscience,” Fed. R. Civ. P. 19(b), the
suit should proceed. Pet. App. 25a-33a. The court reasoned that NTEC would be prejudiced if (1) the courts
determined that the permits were approved in violation of federal law and then (2) the federal defendants,
after complying with NEPA and the ESA, “were not
able to come to the same decisions without imposing
new restrictions or requirements on the Mine or Power
Plant.” Id. at 27a. In other words, the court held that
the suit could not proceed in part because it might ultimately result in eliminating a benefit that NTEC has
no legal entitlement to because it does not conform to
federal law. The court declined to apply the publicrights exception because enforcing national environmental law might harm NTEC’s “entitlement[]” to
benefits resulting from permit approvals if such approvals were issued in violation of law. Id. at 32a.
At each step of the analysis, the Ninth Circuit created law that conflicts with the law of other courts of
appeals. In particular, the decision below directly conflicts with decisions of three other courts of appeals
and is in serious tension with decisions from two

17
additional circuits. As discussed below at pp. 22-23,
infra, moreover, the existing direct conflict warrants
immediate resolution because it implicates nearly all
federally owned and public lands and because it is not
likely to resolve itself.
B. The Ninth Circuit’s holding that NTEC is a
necessary and indispensable party directly conflicts
with decisions of the Seventh, Tenth, and D.C. Circuits.
1. The Seventh Circuit has rejected arguments
materially identical to those adopted below. In
Thomas v. United States, that court considered an
APA challenge by tribal members to a federal agency’s
administration of a tribal election, alleging, inter alia,
that the agency had violated procedural requirements
governing the timing of agency action. 189 F.3d 662,
664 (7th Cir. 1999). When the suit was filed, the election had already occurred, resulting in the adoption of
two amendments to the tribe’s constitution, one of
which altered the rules governing tribal membership.
Id. at 665. There, like here, the agency action was
complete before the suit was filed and the tribal entity
had taken action in reliance on the challenged agency
approval. As the district court did in this case, the district court in Thomas dismissed the suit because the
tribal government was not a party and could not be
made one due to its sovereign immunity. See id. at
666. But unlike in this case, the Seventh Circuit reversed. Acknowledging that the tribe “ha[d] a strong
interest in matters . . . related to membership,” including the agency action at issue in the case, id. at
668, the Seventh Circuit nevertheless held that the
tribe was not a necessary party because, “[a]t its base,
th[e] lawsuit [wa]s a challenge to the way certain

18
federal officials” performed functions assigned by law
to them, id. at 667. The Seventh Circuit explained,
moreover, that the absent tribe could have “advocate[d] for its interest by participating” in the suit as
amicus curiae. Id. at 669.
Precisely the same considerations apply in this
case: although NTEC has a financial interest in the
activities authorized by the permits issued by the federal defendants, this suit challenges only the manner
in which federal agencies and officials performed duties assigned to them by NEPA and the ESA in the
course of issuing the permits. If this suit had arisen
in the Seventh Circuit, it would not have been dismissed. And here, as in the Seventh Circuit, NTEC
could have protected its interests—if indeed they do
diverge from those of the federal defendants—by participating as amicus curiae without waiving its tribal
sovereign immunity.
2. a. The Tenth Circuit has similarly rejected
the approach adopted by the Ninth Circuit below. In
Kansas v. United States, 249 F.3d 1213, 1220 (10th
Cir. 2001), the State of Kansas filed an APA suit challenging federal agency action declaring certain lands
to be “Indian lands” within the meaning of the Indian
Gaming Regulatory Act, 25 U.S.C. § 2701 et seq. The
challenged agency action in that case was complete,
and the plaintiff State argued that the agency had not
complied with certain procedural requirements in taking the challenged action. 249 F.3d at 1219-1220,
1229. The Tenth Circuit rejected a non-party tribe’s
argument that the case should be dismissed because
its interest in the relevant land made it a required and
indispensable party. The court explained that, because the plaintiff’s claims “focus[ed] on the propriety

19
of an agency decision,” id. at 1226, the tribe’s presence
as a party was not necessary.
The Tenth Circuit relied on its then-recent decision in Sac & Fox Nation of Missouri v. Norton, which
similarly held that an absent Indian tribe was not a
necessary or indispensable party in an APA suit challenging a federal agency’s in-progress decision to take
land into trust for a non-party tribe on grounds that
the decision-making process violated NEPA and other
statutes. 240 F.3d 1250, 1253, 1257 (10th Cir. 2001);
see Kansas, 249 F.3d at 1226-1227. The court explained that because each suit “turn[ed] solely on the
appropriateness of the [agency’s] actions, and the
[agency] [wa]s clearly capable of defending those actions,” no other party that might benefit from the challenged action was required. Sac & Fox Nation, 240
F.3d at 1260; see Kansas, 249 F.3d at 1226. Those
holdings directly conflict with the decision below.
b. The decision below also conflicts with the
Tenth Circuit’s approach to the public-rights “exception” to joinder rules now embodied in Rule 19(b). The
court invoked the principles underlying that doctrine
in Manygoats v. Kleppe, an APA suit challenging a federal agency’s NEPA compliance in a completed action
approving mine exploration on tribal land. 558 F.2d
556, 558-559 (10th Cir. 1977). Like the Ninth Circuit
in this case, the Tenth Circuit held that the non-party
tribe on whose lands the permit authorized mining
was a required party, even though the suit challenged
only the propriety of federal agency action. Id. at 557558. But in conflict with the decision below, the Tenth
Circuit held that the suit need not be dismissed in the
absence of the tribe (which could not be joined because
of its immunity to suit). Id. at 558-559. The court

20
explained that the plaintiffs sought a declaration that
the agency’s NEPA analysis was inadequate and an
order for additional analysis by the agency, id. at
558—just like petitioners in this case. Because the
plaintiffs did not “call for any action by or against the
Tribe,” the court explained, the suit could proceed
without the tribe. Id. at 558-559. The Ninth Circuit
reached the opposite conclusion in this case.
As the Tenth Circuit explained, a position like
that adopted by the Ninth Circuit in this case produces
an untenable result: “No one, except the Tribe, c[an]
seek review of an environmental impact statement
covering significant federal action relating to leases or
agreements for development of natural resources on
Indian lands.” Manygoats, 558 F.2d at 559. That approach has the effect of “except[ing] Indian lands from
national environmental policy,” a result directly at
odds with NEPA, which “is concerned with national
environmental interests.” Ibid. The court reached a
similar conclusion in Southern Utah Wilderness Alliance v. Kempthorne, explaining that energy companies
that benefited from challenged agency action “were
not indispensable parties” in a NEPA suit that “fell
within the ‘public rights exception’ to joinder rules,”
including Rule 19. 525 F.3d 966, 969 n.2 (10th Cir.
2008).5
5

The Tenth Circuit held in Citizen Potawatomi Nation v. Norton that a district court did not abuse its discretion in dismissing
an Indian tribe’s suit against federal defendants because other
tribes were indispensable parties that could not be joined. 248
F.3d 993, 1000-1001 (10th Cir. 2001). Although the plaintiff tribe
challenged federal agency action, it sought relief that would have
diverted money from the absent tribes’ pockets into its own

21
3. The decision below also conflicts with a decision of the D.C. Circuit. In Ramah Navajo School
Board, Inc. v. Babbitt, the D.C. Circuit held that, even
if an absent tribe had a protectable interest in the subject of a suit, it was not an indispensable party because
it shared the government defendant’s interest in defending the challenged agency action. 87 F.3d 1338,
1351 (D.C. Cir. 1996). In that case, tribal contractors
sued the Department of the Interior under the APA,
challenging the Department’s compliance with procedural rules governing the adoption of new methods of
distributing certain funds allocated for Indian tribes.
Id. at 1341-1343. The federal defendants argued that
the suit could not proceed without joining tribes that
benefitted from the agency’s completed allocation decision—and that the suit must be dismissed because
those tribes could not be joined. Id. at 1343, 1350. The
D.C. Circuit rejected that argument, holding that the
absent tribes were not indispensable parties because
their only interest was in having funds distributed according to the agency’s challenged allocation. Id. at
1351. That is the opposite of what the Ninth Circuit
held in this case.
In this case and in Ramah Navajo School Board,
the absent tribe and the federal defendant shared an
interest in defending the challenged agency action. 87
F.3d at 1351; Pet. App. 21a-22a. In the D.C. Circuit,
that was sufficient to allow the suit to proceed without
the absent tribe. But in this case, the Ninth Circuit
pockets. Id. at 995-996. The balance of interests in that type of
case is distinct from that at issue here; petitioners seek to compel
the federal defendants’ compliance with federal law, but do not
seek to transfer anything of value from the absent tribal entity’s
pockets into their own.

22
upheld dismissal of the case because the absent tribe
had an interest not only in upholding the agency action but in enjoying the benefits that would flow to the
tribe as a result of that action. Pet. App. 22a. That is
not a distinction. The only reason the tribe in either
case had an interest in the challenged agency action
was because the tribe benefited from the activities approved by that action: distribution of funds in the D.C.
Circuit and continued operation of the Mine in this
case. If this case had been filed in the D.C. Circuit, it
would not have been dismissed under Rule 19.6
4. The direct circuit conflict created by the decision below warrants this Court’s immediate intervention because nearly all APA actions challenging federal agencies’ compliance with procedural requirements on federal or Indian lands will be filed in the
Ninth, Tenth, or D.C. Circuits. Together, the Ninth
and Tenth Circuits contain 90 percent of federal lands
and nearly all Indian lands. See p. 13, supra. Agency
action approving activity on federal and Indian lands

6

The D.C. Circuit rejected a similar argument in Hoopa Valley Tribe v. FERC, in which a tribe challenged a decision by the
Federal Energy Regulatory Commission under the Clean Water
Act and a non-party State sought dismissal under Rule 19. 913
F.3d 1099, 1102-1103 (D.C. Cir. 2019). The court first noted that
Federal Rule of Appellate Procedure 15—not Rule 19—governed
petitions for review of agency action filed directly in the D.C. Circuit. Id. at 1103. But the court also explained that the State’s
indispensable-party argument was “incompatible with precepts
of federalism” because the tribe’s petition for review did not involve any action taken by the State, “but rather a federal agency’s
order,” the propriety of which required only “the interpretation of
federal law.” Ibid. The same principles apply in this case and
should have resulted in the Ninth Circuit’s rejection of NTEC’s
arguments.

23
is therefore overwhelmingly likely to be challenged in
those two circuits. The only other court of appeals
with a significant number of APA actions of this sort
is the D.C. Circuit, the home for venue purposes of
most federal agencies. See 28 U.S.C. § 1391(e)(1). The
direct conflict between the Ninth and D.C. Circuits in
particular is untenable because it will promote forum
shopping: when a plaintiff seeking to challenge
agency action on Indian land has the option of filing
suit in the District of Columbia rather than in the
Ninth Circuit, it will likely do so, increasing litigation
burdens on plaintiffs that reside in the Ninth Circuit
and on non-party tribes that may wish to participate
as amici.
There is also no likelihood that this conflict will
resolve itself. Petitioners sought rehearing en banc in
the Ninth Circuit, in part on the ground that the decision below created a conflict with the Tenth and D.C.
Circuits. C.A. Pet. for Reh’g 14-15. The Ninth Circuit
called for a response, but “no judge” “requested a vote
on whether to rehear the matter en banc.” Pet. App.
45a. The Ninth Circuit is fully committed to its position.
C. In addition to directly conflicting with decisions of the Seventh, Tenth, and D.C. Circuits, the
Ninth Circuit’s decision is also in tension with decisions of the Sixth and Eleventh Circuits, each of which
has rejected similar Rule 19 arguments in cases challenging the validity of federal laws or regulations.
1. In School District of Pontiac v. Secretary of the
U.S. Department of Education, the Sixth Circuit considered a challenge to the No Child Left Behind Act of
2001, Pub. L. No. 107-110, 115 Stat. 1425, filed by local
school districts and education associations that

24
received federal funding under the law through programs administered by States. 584 F.3d 253, 256-258
(6th Cir. 2009) (en banc). The en banc court rejected
an argument that the suit could not proceed without
joining the States, which could not be joined against
their will because they enjoy sovereign immunity. Id.
at 264-268. The Court explained that, although the
States may have had an interest in the outcome of the
suit, they were not necessary parties because any interest was adequately represented by an existing
party. Id. at 266. The court noted that any State concerned that its interest might not be adequately represented could participate as amicus curiae without
waiving its sovereign immunity. Ibid. Finally, the en
banc court explained that viewing the States as indispensable parties “would have the undesirable effect of
foreclosing a vast category of challenges to federal
laws” by requiring dismissal of private suits challenging a federal law (or, presumably, a federal action)
that would affect a State’s interests. Id. at 268. The
Ninth Circuit rejected similar reasoning in this case.
2. The Eleventh Circuit adopted a similar approach in a related context. In Jeffries v. Georgia Residential Finance Authority, a class of public housing
residents sued federal and state agencies, challenging
a federal regulation. 678 F.2d 919, 921 (11th Cir.
1982). The Eleventh Circuit rejected an argument
that the suit must be dismissed in the absence of landlords that administered the public-housing program
governed by the challenged regulation. Id. at 927-929.
The court explained that, because the suit challenged
“regulations promulgated by [the U.S. Department of
Housing and Urban Development],” not “the propriety” of any landlord’s actions, absent landlords were

25
not indispensable, even if their interests might be affected by the outcome of the suit. Id. at 928-929. Because the defendant agencies “advanced the same position as the absent landlords” in defending the regulation, the suit could proceed without the landlords.
Id. at 928. The court also held in the alternative that,
even if the absent landlords’ rights might be adversely
affected by the suit, “when litigation seeks vindication
of a public right, third persons who could be adversely
affected by a decision favorable to the plaintiff do not
thereby become indispensable parties.” Id. at 929 (citing Nat’l Licorice Co. v. NLRB, 309 U.S. 350 (1940)).
If the Ninth Circuit had adhered to that reasoning, it
would have reversed the district court’s dismissal of
this suit.
II. The Question Presented Warrants This
Court’s Immediate Review.
A. The question presented is exceedingly important, particularly in the context of enforcing federal
environmental protections. It will now be impossible
in the Ninth Circuit to challenge federal agencies’ compliance with laws like NEPA and the ESA—which impose procedural and deliberative requirements intended to protect the human environment and at-risk
species—when those actions affect Indian lands or the
financial interests of tribes more generally. As illustrated by this case, the consequence will be a concentration of adverse environmental effects in communities of Indians who live on Indian land. Members of
those communities already suffer from a disproportionate share of health and economic problems. E.g.,
U.S. Dep’t of Health & Human Servs., Office of

26
Minority Health, Profile: American Indian/Alaska
Native. 7 Those problems could materially worsen if
federal agencies’ compliance with environmental protections like NEPA and the ESA is no longer reviewable in the Ninth Circuit, where a substantial portion
of Indian lands are found.
In addition, precluding review of federal agencies’
compliance with federal environmental laws on Indian
lands and other lands that affect the interests of tribally owned businesses will adversely affect surrounding lands as well. Air and water pollution do not remain within the jurisdictional boundaries of the lands
from which they originate. Harm to the environment—not to mention harm to at-risk species—will be
felt by all who have an interest in the surrounding natural environment and in the harmed species. Under
the logic of the decision below, private citizens would
be unable to invoke judicial review if a federal agency
approved an action on Indian lands that would result
in the extinction of a protected species. That is certainly not what Congress intended.
Such a result is directly contrary to Congress’s intent in enacting those laws. In NEPA itself, Congress
expressly declared its intent to “assure for all Americans safe, healthful, productive, and esthetically and
culturally pleasing surroundings,” and “recognize[d]
that each person should enjoy a healthful environment
and that each person has a responsibility to contribute
to the preservation and enhancement of the environment.” 42 U.S.C. § 4331(b)(2), (c) (emphases added).
NEPA does not exempt communities on or near Indian
7

https://minorityhealth.hhs.gov/omh/browse.aspx?lvl=
3&lvlID=62 (last modified Mar. 28, 2018).

27
lands from its protections. The ESA is similarly intended to preserve “the ecosystems upon which endangered species and threatened species depend” throughout the country. 16 U.S.C. § 1531(b). Nothing about
the statute’s text or purpose would suggest that federal actions involving Indian lands or tribal financial
interests more broadly are exempt from compliance
with the ESA.
To make matters worse, the problems created by
the decision below may not be limited to Indian lands
and tribal interests. Already, the State of Arizona has
relied on the decision below to seek dismissal of a suit
challenging a federal agency’s failure to comply with
environmental laws in allowing disposal of lead ammunition in a national forest. State of Arizona Br.,
Ctr. for Biological Diversity v. U.S. Forest Serv., No.
12-cv-08176 (D. Ariz. Nov. 12, 2019). The State contends that compliance with the federal laws would interfere with the State’s authority to regulate hunting
on federal lands—and urges dismissal of the suit rather than adjudication of that issue because its assertion of an interest “is not ‘patently frivolous,’” id. at 4
(quoting Shermoen v. United States, 982 F.2d 1312,
1318 (9th Cir. 1992)), and because the State is immune
to suit, id. at 11-12. This Court’s immediate intervention is warranted to prevent immune entities from
rendering federal agency action unreviewable where
Congress plainly intended the opposite.
This Court has explained that the APA “creates a
‘basic presumption of judicial review [for] one “suffering legal wrong because of agency action.”’” Weyerhaeuser Co. v. U.S. Fish & Wildlife Serv., 139 S. Ct. 361,
370 (2018) (quoting Abbott Labs. v. Gardner, 387 U.S.
136, 140 (1967)). When no such review is available—

28
and thus “no consequence[s]” result from violations—
“legal lapses and violations occur” more often. Ibid.
(quoting Mach Mining LLC v. EEOC, 135 S. Ct. 1645,
1652-1653 (2015)). Where, as here, no statute precludes review and the challenged action is not committed to agency discretion by law, the Court has “long
applied a strong presumption favoring judicial review
of administrative action.” Ibid. (quoting Mach Mining,
135 S. Ct. at 1653). The decision below turns that presumption on its head by precluding judicial review
based on the possibility of a future hypothetical disagreement between the federal defendants and a tribal
entity.
The direct conflict between the Ninth Circuit’s approach to Rule 19 in suits against federal agencies to
enforce procedural rights and the approach of at least
three other circuits is untenable. Statues like NEPA,
the ESA, and other provisions enforced through APA
suits and citizen suits directed at federal agencies apply nationwide standards governing the manner in
which federal agencies make decisions. Although
some plaintiffs may seek to avoid the consequences of
the decision below by filing in the District of Columbia
rather than in a court within the Ninth Circuit, that
type of forum shopping simply highlights the problem
with the existing circuit conflict. Together, the APA,
NEPA, and the ESA (along with other statues imposing requirements on federal agency decision-making)
provide a nationwide system of judicial review of
agency actions. That system should apply uniformly
throughout the country.
B. Review is also warranted because the decision
below is wrong.

29
Even assuming that NTEC’s financial interest in
the activity authorized by the permits is sufficient to
be cognizable under Rule 19, the Ninth Circuit erred
in concluding that NTEC’s “ability to protect th[at] interest” would “as a practical matter” be “impair[ed] or
impede[d]” if the suit were to proceed without joining
NTEC as a party. Fed. R. Civ. P. 19(a)(1)(B)(i).
NTEC’s only “interest relating to the subject of th[is]
action,” Fed. R. Civ. P. 19(a)(1)(B), is its interest in
having the challenged agency action upheld. That is
the same interest that the federal defendants have. Indeed, the federal defendants had already filed a substantive request to dismiss this action, strongly indicating that any implicated tribal interest would not be
impaired by the tribe’s absence as a party.
The Ninth Circuit therefore erred in concluding
that the federal defendants would not adequately represent NTEC’s interests. The court did not identify
any argument in defense of the agency actions that
NTEC would make but the federal defendants would
not. If this action were permitted to proceed, the inquiry would focus on the record and deliberative processes employed by the federal agencies in taking the
challenged actions and in particular on whether those
agencies adequately considered impacts on endangered species and other natural resources. NTEC has
no special expertise relevant to that inquiry, and the
substantive defense of the agencies’ compliance with
federal law must rise or fall on the basis of the agencies’ proffered justifications. See Motor Vehicle Mfrs.
Ass’n of the U.S., Inc. v. State Farm Mut. Auto. Ins.
Co., 463 U.S. 29, 52 (1983); see also Nat. Res. Def.
Council, Inc. v. Tenn. Valley Auth., 340 F. Supp. 400,
408 (S.D.N.Y. 1971) (holding that participation by coal

30
producers in NEPA action would not “elucidate the issue in the case,” i.e., “whether [the agency] followed
the dictates of NEPA,” because “[t]hey would have to
take positions about [agency] procedures and [agency]
estimates of environmental harms, topics on which
they have no special knowledge”), rev’d on other
grounds, 459 F.3d 255 (2d Cir. 1972).
NTEC can also protect its interests by participating as amicus curiae without waiving its tribal sovereign immunity. Thomas, 189 F.3d at 669; Sch. Dist. of
Pontiac, 584 F.3d at 266. NTEC’s interests are further
protected by the presence in the action of intervenor
APS, NTEC’s partner in the Power Plant operation.
The Ninth Circuit identified only one potential divergence between the federal government’s interests
and NTEC’s, explaining that, unlike NTEC, the federal defendants have an “overriding interest” in “complying with environmental laws such as NEPA and the
ESA.” Pet. App. 21a. But that is no basis for holding
that NEPA and the ESA cannot be enforced against
federal agencies when they do not comply. Under the
Ninth Circuit’s logic, the federal defendants’ interests
would diverge from NTEC’s interests only if the permits were in fact authorized in violation of NEPA and
the ESA. But NTEC has no legally protected interest
in retaining permits that were issued in violation of
federal law. Although NTEC would retain a financial
interest in operating a mine pursuant to illegally issued permits, that is surely not the type of interest
that requires dismissal under Rule 19.
The decision below also ignores this Court’s public-rights exception to ordinary joinder rules, which is
now reflected in Rule 19(b). The Court established in
National Licorice that where, as here, a proceeding is

31
“narrowly restricted to the protection and enforcement
of public rights, there is little need for the traditional
rules governing the joinder of parties in litigation determining private rights.” 309 U.S. at 363. Like the
petitioner in that case, here “the right asserted by [petitioners] is not one arising upon or derived from the
contracts between” the federal defendants and NTEC.
Id. at 364. And, as in that case, the public rights created by NEPA and the ESA do not countenance protection of NTEC’s “enjoyment of any advantage which
[it] has gained by violation of th[ose] Act[s].” Ibid. Petitioners’ action “is directed solely to the” federal defendants and leaves NTEC “free to assert such legal
rights as [it] may have acquired” under the issued permits. Id. at 366. Under this Court’s decision in National Licorice, the Ninth Circuit therefore erred in
concluding that NTEC is an indispensable party.
CONCLUSION
For the foregoing reasons, the petition for a writ
of certiorari should be granted.
Respectfully submitted,
Sarah E. Harrington
Counsel of Record
Erica Oleszczuk Evans
GOLDSTEIN &
RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda, MD 20814
(202) 362-0636
sh@goldsteinrussell.com
March 24, 2020

APPENDIX

1a
APPENDIX A
________________________________
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DINE CITIZENS AGAINST RUINING OUR
ENVIRONMENT; SAN JUAN CITIZENS
ALLIANCE; AMIGOS BRAVOS; SIERRA
CLUB; CENTER FOR BIOLOGICAL
DIVERSITY,
Plaintiffs-Appellants,
v.

No. 17-17320
D.C. No.
3:16-cv08077-SPL
OPINION

BUREAU OF INDIAN AFFAIRS; UNITED
STATES DEPARTMENT OF INTERIOR;
UNITED STATES OFFICE OF SURFACE
MINING RECLAMATION AND
ENFORCEMENT; UNITED STATES
BUREAU OF LAND MANAGEMENT;
DAVID BERNHARDT,* IN HIS OFFICIAL
CAPACITY AS SECRETARY OF THE U.S.
DEPARTMENT OF INTERIOR; UNITED
STATES FISH AND WILDLIFE SERVICE,
Defendants-Appellees,
ARIZONA PUBLIC SERVICE COMPANY;
NAVAJO TRANSITIONAL ENERGY
COMPANY LLC,
Intervenor-Defendants-Appellees

*

David Bernhardt has been substituted for his predecessor,
Sally Jewell, under Fed. R. App. P. 43(c)(2).

2a
Appeal from the United States District Court
for the District of Arizona
Steven Paul Logan, District Judge, Presiding
Argued and Submitted March 7, 2019
Phoenix, Arizona
Filed July 29, 2019
Before: Sandra S. Ikuta and Michelle T. Friedland,
Circuit Judges, and Frederic Block,** District Judge.
Opinion by Judge Friedland
________________________________
SUMMARY***
________________________________
Joinder / Tribal Sovereign Immunity
The panel affirmed the district court’s dismissal,
pursuant to Federal Rules of Civil Procedure 19 and
12(b)(7), of an action brought by a coalition of tribal,
regional, and national conservation organizations who
sued the United States Department of the Interior, its
Secretary, and several bureaus within the agency,
challenging a variety of agency actions that reauthorized coal mining activities on land reserved to the Navajo Nation.

**

The Honorable Frederic Block, United States District Judge
for the Eastern District of New York, sitting by designation.
***

This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.

3a
Plaintiffs alleged that the agency actions violated
the Endangered Species Act and the National Environmental Policy Act. The Navajo Transitional Energy
Company, a corporation wholly owned by the Navajo
Nation that owns the Navajo Mine, intervened in the
action for the limited purpose of moving to dismiss under Rules 19 and 12(b)(7). The Navajo Transitional
Energy Company asserted that it was a required party
but that it could not be joined due to tribal sovereign
immunity, and that the lawsuit could not proceed
without it.
The panel held that the Navajo Transitional Energy Company has a legally protected interest in the
subject matter of this suit that would be impaired in
its absence. The panel reasoned that if plaintiffs succeeded in their challenge and the agency actions were
vacated, the Navajo Transitional Energy Company’s
interest in the existing lease, rights-of-way, and surface mining permits would be impaired. Without the
proper approvals, the Mine could not operate, and the
Navajo Nation would lose a key source of revenue in
which the Navajo Transitional Energy Company had
already substantially invested.
The panel next held that because no other party
to the litigation could adequately represent the Navajo
Transitional Energy Company’s interests, the district
court did not err in determining that the Company was
a party that must be joined if feasible under Rule
19(a). The panel held that the Federal Defendants
could not be counted on to adequately represent the
Company’s interests because although the Federal Defendants had an interest in defending their decisions,
their overriding interest must be in complying with
environmental laws. This interest differed in a

4a
meaningful sense from the Navajo Transitional Energy Company’s and the Navajo Nation’s sovereign interest in ensuring that the Mine and the Four Corners
Power Plant, which buys coals exclusively from the
Mine, continued to operate and provide profits to the
Navajo Nation. The panel further held that defendant,
the Arizona Public Service Company, did not share the
Navajo Nation’s sovereign interests in controlling its
own resources and in the continued operation of the
Mine and Power Plant.
The panel held that due to tribal sovereign immunity, the Navajo Transitional Energy Company
could not feasibly be joined as a party to this litigation.
The panel held that the district court correctly determined that the Navajo Transitional Energy Company
was an “arm” of the Navajo Nation that enjoyed the
Nation’s immunity from suit. The panel noted that the
Company is wholly owned by the Navajo Nation and is
organized pursuant to Navajo law. It was created specifically so that the Navajo Nation could purchase the
Mine. Applying the Rule 19(b) factors, the panel held
that the district court did not err in concluding that
the litigation could not, in good conscience, continue in
the Navajo Transitional Energy Company’s absence.
The panel rejected plaintiffs’ and United States’
request to apply the “public rights” exception to hold
that this litigation could continue in the National
Transitional Energy Company’s absence. The panel
held that although plaintiffs nominally sought only a
renewed National Environmental Policy Act and Endangered Species Act process, the implication of their
claims was that Federal Defendants should not have
approved the mining activities in their exact form. The
result plaintiffs sought, therefore, threatened the

5a
National Transitional Energy Company’s legal entitlements, and accordingly, the public rights exception did
not apply.
*

*

*

OPINION
FRIEDLAND, Circuit Judge:
A coalition of tribal, regional, and national conservation organizations (“Plaintiffs”) sued the U.S. Department of the Interior, its Secretary, and several bureaus within the agency, challenging a variety of
agency actions that reauthorized coal mining activities
on land reserved to the Navajo Nation. Plaintiffs alleged that these actions violated the Endangered Species Act (“ESA”), 16 U.S.C. § 1531 et seq., and the National Environmental Policy Act (“NEPA”), 42 U.S.C.
§ 4321 et seq. The Navajo Transitional Energy Company (“NTEC”), a corporation wholly owned by the
Navajo Nation that owns the mine in question, intervened in the action for the limited purpose of moving
to dismiss under Federal Rules of Civil Procedure 19
and 12(b)(7). NTEC argued that it was a required
party but that it could not be joined due to tribal sovereign immunity, and that the lawsuit could not proceed without it. The district court agreed with NTEC
and dismissed the action.1 We affirm.

1

At the parties’ joint request, we take judicial notice of the
existence of the following documents and their contents: (1) Record of Decision for the Four Corners Power Plant and Navajo
Mine Energy Project (July 14, 2015); (2) Final Environmental Impact Statement for the Four Corners Power Plant and Navajo

6a
I.
A.
The Navajo Mine (“Mine”) is a 33,000-acre strip
mine. It produces coal from which the Four Corners
Power Plant (“Power Plant”) generates electricity. The
Mine and Power Plant are both on tribal land of the
Navajo Nation within New Mexico. The Mine operates
pursuant to a surface mining permit issued by the Department of the Interior’s Office of Surface Mining
Reclamation and Enforcement (“OSMRE”) under the
Surface Mining Control and Reclamation Act of 1977,
30 U.S.C. § 1201 et seq. Transmission lines that distribute electricity from the Power Plant run west into
Arizona through lands reserved to the Navajo Nation
and Hopi Tribe. The Mine, Power Plant, and transmission lines were built in tandem and have operated
since the early 1960s.
The Navajo Nation is a federally recognized Indian tribe with its seat of government in Arizona and
territory spanning areas of Arizona, Utah, and New
Mexico. For many years, the Navajo Nation granted a
coal mining lease to BHP Billiton Navajo Coal Company (“BHP Billiton”), a private company that owned
and operated the Mine. In 2013, the Navajo Nation
Council created the Navajo Transitional Energy Company (again, “NTEC”) for the purpose of purchasing
the Mine from BHP Billiton.

Mine Energy Project (May 1, 2015); and (3) Environmental Assessment and Finding of No Significant Impact for Navajo Mine
Permit Transfer Application, Navajo Reservation, New Mexico
(Nov. 2013). See Ariz. Libertarian Party v. Reagan, 798 F.3d 723,
727 n.3 (9th Cir. 2015).

7a
The Power Plant is owned by several utility companies, including Public Service Company of New
Mexico, Tucson Electric Company, Salt River Project,
and Intervenor-Defendant Arizona Public Service
Company (“APS”). APS operates the Power Plant on
behalf of all co-owners subject to a lease agreement,
originally executed in 1960, with the Navajo Nation.
Under the agreement, the Mine sells coal exclusively
to the Power Plant, and the Power Plant buys its coal
exclusively from the Mine. The Navajo Nation also authorizes easements for rights-of-way over Navajo
lands for the Power Plant, and both the Navajo Nation
and Hopi Tribe authorize easements for rights-of-way
for power transmission lines that cross tribal lands.
The Mine and the Power Plant are key sources of
revenue for the Navajo Nation. Under the federally approved leases and permits that are at issue in this
case, operations at the Mine and the Power Plant are
expected to generate between 40 and 60 million dollars
per year in revenue for the Navajo Nation.
B.
This lawsuit stems from changes and renewals to
the lease agreements, rights-of-way, and governmentissued permits under which the Mine and Power Plant
operate.
In 2011, APS and the Navajo Nation amended the
lease governing Power Plant operations, including by
extending the term of the lease through 2041. BHP
Billiton (which at the time still owned the Mine) then
sought a renewal of the existing surface mining permit
for the Mine and a new surface mining permit that

8a
would allow operations to move to an additional area
within the Mine lease area.2
The lease amendment and accompanying rightsof-way could not go into effect, and the surface mining
permits could not be granted, without approvals from
several bureaus within the Department of the Interior.
First, OSMRE needed to approve the surface mining
permits. Second, approval by the Bureau of Indian Affairs (“BIA”) was required to effectuate the lease
amendment. Third, BIA had ultimate responsibility to
grant the associated rights-of-way for the Power Plant
facilities and transmission lines that the tribes had approved. Finally, approval of the Bureau of Land Management (“BLM”) was required to ensure adequate resource recovery and protection on the tribal lands.
OSMRE took the lead on considering the approval
requests for the Mine. It cooperated with BIA and
BLM, as well as with two additional bureaus within
the Department of the Interior: the National Park Service and the Fish and Wildlife Service (“Fish and Wildlife”). OSMRE also coordinated with the U.S. Army
Corps of Engineers, the U.S. Environmental Protection Agency, the Navajo Nation, and the Hopi Tribe on
the review process.
OSMRE engaged in formal consultation with Fish
and Wildlife, as required by the ESA when a project
“may affect listed species or critical habitat.” 50 C.F.R.
§ 402.14(a). In April 2015, Fish and Wildlife completed
formal consultation and issued a Biological Opinion
concluding that the proposed action would not

2

When NTEC purchased the Mine from BHP Billiton, NTEC
became the applicant for these permits.

9a
jeopardize the continued existence of any of the threatened and endangered species evaluated. Relying on
Fish and Wildlife’s assessments in the Biological Opinion, OSMRE produced an Environmental Impact
Statement (“EIS”) in May 2015.
OSMRE and BIA issued a Record of Decision in
July 2015, which included the approvals by OSMRE,
BIA, and BLM necessary for the continued operation
and expansion of the Mine. The Deputy Secretary of
the Interior approved the decisions of each of these bureaus within the Department of the Interior.
Since obtaining the required permits and approvals, APS and NTEC have made significant financial
investments in the Power Plant and Mine, including
by implementing conservation measures required by
the Record of Decision. NTEC also moved mining operations into the areas designated in the new surface
mining permit.3 Additionally, NTEC secured a new
$115 million line of credit in July 2016 that paid off
the original note with which NTEC had purchased the
Mine, and that provided additional capital. This line
of credit is secured by, among other things, the Mine
itself as an asset of NTEC.
C.
In April 2016, the plaintiff conservation organizations sued BIA, OSMRE, BLM, Fish and Wildlife, and
3

Although the details of APS’s and NTEC’s investments and
mining activities that have taken place since issuance of the Record of Decision are not before us, APS states in its brief that it
and NTEC have invested hundreds of millions of dollars in upgrades, improvements, and conservation measures in reliance on
the Record of Decision. Plaintiffs have not disputed this assertion.

10a
the Department of the Interior, along with its Secretary (collectively, “Federal Defendants”). Plaintiffs
challenged the opinions and approvals that authorized
continued operations at the Mine and the Power Plant.
Specifically, Plaintiffs alleged that Fish and Wildlife’s
Biological Opinion violated the requirements of the
ESA, and that BIA, OSMRE, and BLM violated the
ESA by relying on the faulty Biological Opinion in deciding to approve the activities at issue. Plaintiffs also
alleged that Federal Defendants violated NEPA by
crafting an unlawfully narrow statement of purpose
and need for the project in the EIS, failing to consider
reasonable alternatives, and failing to take the requisite “hard look” at various impacts of the mining complex. See Marsh v. Or. Nat. Res. Council, 490 U.S. 360,
374 (1989) (“NEPA . . . require[s] that agencies take a
‘hard look’ at the environmental effects of their
planned action.”).
Plaintiffs sought: (1) declarations that Federal
Defendants violated NEPA and the ESA; (2) orders
setting aside Fish and Wildlife’s Biological Opinion
and Federal Defendants’ Record of Decision and EIS
and remanding the matter to the agencies for further
analysis; (3) prospective injunctive relief prohibiting
Fish and Wildlife from authorizing any adverse modification to critical habitat for, or take of, two types of
fish; and (4) prospective injunctive relief prohibiting
Federal Defendants from authorizing any element of
the mining operations pending compliance with
NEPA.
After Federal Defendants answered, APS filed a
motion to intervene, which the district court granted.
NTEC also sought to intervene in the action for the
limited purpose of filing a motion to dismiss under

11a
Federal Rules of Civil Procedure 19 and 12(b)(7). The
court granted NTEC’s motion to intervene as a matter
of right as owner of the Mine, and NTEC then moved
to dismiss. NTEC asserted that it was a required party
because of its economic interest in the Mine, that it
could not be joined due to tribal sovereign immunity,
and that the action could not proceed in its absence.
Even though dismissal would have left their decisions
intact, Federal Defendants opposed NTEC’s motion to
dismiss, arguing that the federal government was the
only party required to defend an action seeking to enforce compliance with NEPA and the ESA.
The district court granted NTEC’s motion to dismiss. The court concluded that NTEC had a legally
protected interest in the subject matter of this suit, because the “relief Plaintiffs seek could directly affect
the Navajo Nation (acting through its corporation, Intervenor-Defendant NTEC) by disrupting its ‘interests
in [its] lease agreements and the ability to obtain the
bargained-for royalties and jobs.’” The court held that
Federal Defendants could not adequately represent
NTEC’s interest in the litigation, because although the
agencies had an interest in defending their analyses
and decisions, “NTEC’s interests in the outcome of this
case far exceed” those of the agencies. The court observed that, although NTEC’s interests were currently
aligned with those of Federal Defendants, there could
be a “later divergence of interests” during the course
of the litigation. The court further concluded that
NTEC could not be joined due to the Navajo Nation’s
sovereign immunity, and that the litigation could not,
“in equity and good conscience,” continue in NTEC’s
absence.

12a
Plaintiffs timely appealed, arguing that NTEC did
not have a legally protected interest in Federal Defendants’ compliance with environmental laws; that
even if NTEC did have such an interest, Federal Defendants would adequately represent that interest;
and that even if NTEC were a required party, the litigation could continue in its absence under the “public
rights exception” to traditional joinder rules.
II.
We review a “district court’s decision to dismiss
[an] action for failure to join” a required party for
abuse of discretion, but we review its underlying legal
conclusions de novo. Paiute-Shoshone Indians of
Bishop Cmty. of Bishop Colony, Cal. v. City of Los Angeles, 637 F.3d 993, 997 (9th Cir. 2011).4 When reviewing an order dismissing a case under Rule 12(b)(7) for
failure to join a party, “we accept as true the allegations in Plaintiff[s’] complaint and draw all reasonable
inferences in Plaintiff[s’] favor.” Id. at 996 n.1. We review de novo the question whether a tribe feasibly can
be joined. E.E.O.C. v. Peabody W. Coal Co., 400 F.3d
774, 778 (9th Cir. 2005).
III.
A person or entity is a “required party” and “must
be joined” if feasible if either “in that [party]’s absence,
the court cannot accord complete relief among existing
parties”; or if “that [party] claims an interest relating
to the subject of the action and is so situated that
4

We need not decide here precisely which parts of the Rule
19 analysis are underlying legal conclusions entitled to de novo
review and which parts are entitled to abuse of discretion review,
because even if we reviewed every component of the Rule 19 analysis here de novo, we would affirm the district court’s decision.

13a
disposing of the action in the [party]’s absence may . .
. as a practical matter impair or impede the [party]’s
ability to protect the interest” or “leave an existing
party subject to a substantial risk of incurring double,
multiple, or otherwise inconsistent obligations because of the interest.” Fed. R. Civ. P. 19(a)(1). Under
Rule 19, if the party “who is required to be joined if
feasible cannot be joined, the court must determine
whether, in equity and good conscience, the action
should proceed among the existing parties or should
be dismissed.” Fed. R. Civ. P. 19(b). If it cannot proceed, a motion to dismiss under Rule 12(b)(7) for failure to join a party is properly granted.5
A.
NTEC argues that it is a required party that must
be joined if feasible because: (1) it has a legally protected interest in the subject matter of this litigation,
and (2) proceeding with the lawsuit in NTEC’s absence
would impair that interest. See Fed. R. Civ. P.
19(a)(1)(B). We agree.
1.
In determining whether NTEC claims a legally
protected interest in the subject matter of this suit, we
must “carefully . . . identify [NTEC’s] interest at
stake.” Cachil Dehe Band of Wintun Indians of the
Colusa Indian Cmty. v. California, 547 F.3d 962, 973
5

Before 2007, parties that are now called “required” under
Rule 19 were referred to as “necessary,” and parties without
whom the litigation could not, in good conscience, continue, were
referred to as “indispensable.” See Republic of Philippines v. Pimentel, 553 U.S. 851, 855–56 (2008). Rule 19 was revised in 2007,
but the revisions were intended to be only “stylistic,” and the Supreme Court has interpreted them as such. Id. at 855.

14a
(9th Cir. 2008) (“Colusa”). “The inquiry under Rule
19(a) ‘is a practical one and fact specific,’” White v.
Univ. of Cal., 765 F.3d 1010, 1026 (9th Cir. 2014)
(quoting Makah Indian Tribe v. Verity, 910 F.2d 555,
558 (9th Cir. 1990)), and “few categorical rules inform[] this inquiry,” Colusa, 547 F.3d at 970.
To satisfy Rule 19, an interest must be legally protected and must be “more than a financial stake.”
Makah, 910 F.2d at 558. “[A]n interest that ‘arises
from terms in bargained contracts’ may be protected,
but . . . such an interest [must] be ‘substantial.’”
Colusa, 547 F.3d at 970 (quoting Am. Greyhound Racing, Inc. v. Hull, 305 F.3d 1015, 1023 (9th Cir. 2002)).
“[A]n absent party has no legally protected interest at
stake in a suit merely to enforce compliance with administrative procedures.” Id. at 971.
“If a legally protected interest exists, the court
must further determine whether that interest will be
impaired or impeded by the suit.” Makah, 910 F.2d at
558. “As a practical matter, an absent party’s ability
to protect its interest will not be impaired by its absence from the suit where its interest will be adequately represented by existing parties to the suit.”
Alto v. Black, 738 F.3d 1111, 1127 (9th Cir. 2013)
(quoting Washington v. Daley, 173 F.3d 1158, 1167
(9th Cir. 1999)). Three factors are relevant to whether
an existing party may adequately represent an absent
required party’s interests:
whether the interests of a present party to the
suit are such that it will undoubtedly make all
of the absent party’s arguments; whether the
party is capable of and willing to make such
arguments; and whether the absent party
would offer any necessary element to the

15a
proceedings that the present parties would neglect.
Id. at 1127–28 (quotation marks omitted).
2.
Although an absent party has no legally protected
interest at stake in a suit seeking only to enforce compliance with administrative procedures, our case law
makes clear that an absent party may have a legally
protected interest at stake in procedural claims where
the effect of a plaintiff’s successful suit would be to impair a right already granted. Under that case law,
NTEC has a legally protected interest in the subject
matter of this suit that would be impaired in its absence.
In Northern Alaska Environmental Center v. Hodel, 803 F.2d 466 (9th Cir. 1986), we held that absent
miners with mining plans and access permits pending
before (but not yet approved by) the National Park
Service (“NPS”) did not have a legally protected interest in a suit brought by environmental groups seeking
to enjoin NPS from approving such plans and permits
until NPS complied with NEPA and NPS regulations.
Id. at 469.6 We explained that “[t]he subject matter of
th[e] dispute concern[ed] NPS procedures regarding
mining plan approval,” and that although “all miners
[were] interested in how stringent the requirements
[would] be,” “miners with pending plans ha[d] no legal

6

We did not need to reach whether the miners had a legally
protected interest in already approved plans, because we held
that any claims related to those plans were moot. Hodel, 803 F.2d
at 469 n.2.

16a
entitlement to any given set of procedures.” Id. (quotation marks omitted).
In Makah, we likewise held that absent tribes
lacked a legally protected interest in a suit brought by
the Makah Indian Tribe challenging the Secretary of
Commerce’s ocean fishing allotment “[t]o the extent
that the Makah [sought prospective injunctive] relief
that would affect only the future conduct of the administrative process.” 910 F.2d at 559 (emphasis added).
We also held, however, that absent tribes did have a
legally protected interest “to the extent the Makah
[sought] a reallocation of [a particular prior year’s]
harvest or challenge[d] the Secretary’s [prior] intertribal allocation decisions.” Id. We accordingly held
that the suit could proceed but that “the scope of the
relief available to the Makah on their procedural
claims [was] narrow” and limited to prospective relief
relating to such future processes. Id.
Similarly, in Colusa, we held that absent tribes,
whose gaming compacts with California provided for
the operation of “gaming devices” but limited the number of state licenses for such devices, had legally protected interests in the licenses that they already held
under the compacts. Still, we held that such interests
would not be impaired by a lawsuit brought by another
compact-holding tribe (Colusa) against California “[t]o
the extent that Colusa [sought] prospective relief” relating to the issuance of future licenses, such as
Colusa’s request for higher priority in the draw for licenses. 547 F.3d at 974. We explained that “Rule 19
necessarily confine[d] the relief that [could] be granted
on Colusa’s claims to remedies that [did] not invalidate the licenses that [had] already been issued to the
absent . . . Tribes.” Id. at 977.

17a
In Kescoli v. Babbitt, 101 F.3d 1304 (9th Cir.
1996), by contrast, we affirmed dismissal of a lawsuit
in which there were legally protected interests at
stake that we concluded were threatened by the retroactive effect of the relief sought in the litigation. Specifically, we held that the Navajo Nation and Hopi
Tribe both had a legally protected interest and were
necessary parties to a Navajo Nation member’s suit
challenging a settlement reached between those tribes
and the government that modified special conditions
required by a mining permit issued to a company that
operated a mine under lease agreements with the two
tribes. Id. at 1310. We reasoned that because the settlement dictated the conditions under which mining
operations could be conducted, the litigation “could affect the amount of royalties received by the Navajo Nation and the Hopi Tribe and employment opportunities
for their members.” Id. at 1309–10. We explained that,
unlike the prospective claim in Makah, the plaintiff’s
challenge to the settlement “could affect the Navajo
Nation’s and the Hopi Tribe’s interests in their lease
agreements and the ability to obtain the bargained-for
royalties and jobs.” Id. at 1310.
Applying these precedents, NTEC has a legally
protected interest in the subject matter of this action.
Although Plaintiffs’ challenge is to Federal Defendants’ NEPA and ESA processes (rather than to anything that NTEC has done), it does not relate only to
the agencies’ future administrative process, but instead may have retroactive effects on approvals already granted for mining operations. If Plaintiffs succeeded in their challenge and the agency actions were
vacated, NTEC’s interest in the existing lease, rightsof-way, and surface mining permits would be

18a
impaired. Without the proper approvals, the Mine
could not operate, and the Navajo Nation would lose a
key source of revenue in which NTEC has already substantially invested. This case is therefore like Kescoli,
where we concluded that absent tribes were necessary
because the litigation could affect already-negotiated
lease agreements and expected jobs and revenue. And
it is unlike either Makah or Colusa, in which we could
tailor the scope of relief available to being prospective
only, preventing any impairment to a legally protected
interest.
3.
The question whether any existing party adequately represents NTEC’s interest in this litigation is
closer, but we conclude that none does.
In White v. University of California, we affirmed a
district court’s dismissal of a suit against the University of California under the Native American Graves
Protection and Repatriation Act (“NAGPRA”) for failure to join absent tribes that we concluded could not
be adequately represented by the existing defendant
in the case. 765 F.3d. at 1015. White involved a custody
dispute over human remains uncovered on land belonging to the University of California that was aboriginally occupied by members of the Kumeyaay Nation, which consists of several federally recognized
tribes. Id. The University determined that it was required, under NAGPRA, to repatriate the remains to
the Kumeyaay Cultural Repatriation Committee,
which had requested repatriation. Id. at 1015–16. Several University professors sued to enjoin repatriation,
and the district court dismissed the claim for failure to
join the Repatriation Committee, which could not be
joined due to tribal immunity. Id.

19a
We affirmed, holding that absent Kumeyaay
tribes and the Repatriation Committee had an interest
that would be impaired if the suit proceeded in their
absence. As we explained, if the plaintiffs “succeed[ed]
in their efforts to enjoin transfer of the remains . . .
then the claims of the Tribes and the Repatriation
Committee [to the human remains] [would] be extinguished without the opportunity for them to be heard.”
Id. at 1027. We held that even though the University
had determined that NAGPRA obligated it to repatriate the remains to the Kumeyaay, “the University
[could not] sufficiently represent the interests of the
Tribes or Repatriation Committee” in the litigation,
because the University’s and the absent tribes’ interests would “not necessarily remain aligned.” Id. The
University’s interest and the absent tribes’ interest
were of a different nature: the University had “a broad
obligation to serve the interests of the people of California, rather than any particular subset, such as the
people of the Kumeyaay tribes.” Id. We theorized that
if, contrary to the University’s own assessment of its
obligations under NAGPRA, “a court were to determine that the [] remains should not be transferred to
the Kumeyaay under NAGPRA, it [was] questionable
whether—perhaps even unlikely that—the University
and the Kumeyaay would pursue the same next course
of action.” Id. (emphasis added). We therefore upheld
the district court’s determination that the Kumeyaay
tribes and Repatriation Committee were necessary
parties.
In Southwest Center for Biological Diversity v.
Babbitt, 150 F.3d 1152 (9th Cir. 1998), by contrast, we
held that the government could adequately represent
a tribe’s interest in litigation brought by an

20a
environmental organization challenging, under NEPA
and the ESA, the Secretary of the Interior’s plan to
begin using a new water storage facility. Id. at 1153.
We recognized that the Salt River Pima-Maricopa Indian Community (“Community”) had an interest in the
facility’s “becoming available for use as soon as possible” to store water, and we concluded that this interest
would be impaired if an injunction issued in the case.
Id. But, we reasoned, the government “share[d] a
strong interest in defeating [the] suit on the merits
and ensuring that the [facility was] available for use
as soon as possible.” Id. at 1154. We held that this
made the government an adequate representative of
the Community’s interest. Id. at 1154. We also noted
that although the government did not “share the Community’s interest in protecting [the Community’s] sovereignty,” there was no explanation of “how the Community’s sovereignty would be implicated” in the suit.
Id. at 1154–55.
In Alto v. Black, we likewise held that the United
States could represent a tribe’s interest in a suit challenging a BIA order upholding the tribe’s decision to
disenroll certain individuals as members of the tribe.
738 F.3d at 1128. As we explained, the tribe’s own governing documents vested BIA with ultimate authority
over the tribe’s membership decisions. Id. at 1115. We
also relied on the government’s shared interest in defending its own decision, which it had already “vigorously defended,” and its obligation to protect tribal interests as part of its general “trust responsibility” to
tribes. Id. at 1128 (citation omitted). The tribe had not
“presented any arguments that it would offer . . . which
[the government] ha[d] not or would not make.” Id.

21a
The Tenth Circuit in Manygoats v. Kleppe, 558
F.2d 556 (10th Cir. 1977), held, in contrast, that the
government could not adequately represent a tribe’s
interests. In Manygoats, the Navajo had granted
Exxon Corporation the right to mine uranium on tribal
lands, and the Secretary of the Interior approved the
agreement after completing an EIS. Id. at 557. Individual Navajo tribal members sought to enjoin performance of the mining agreement between the tribe and
Exxon, claiming that the EIS was inadequate under
NEPA. Id. The Tenth Circuit held that the Secretary
of the Interior could not adequately represent the absent tribe because “[t]he Secretary must act in accord
with the obligations imposed by NEPA,” and the environmental goals of that statute were “not necessarily
coincidental with the interest of the Tribe in the benefits which the Exxon agreement provides.” Id. at 558.
Applying the lessons from these cases, we agree
with the district court that Federal Defendants cannot
be counted on to adequately represent NTEC’s interests. Although Federal Defendants have an interest in
defending their decisions, their overriding interest, as
it was in Manygoats, must be in complying with environmental laws such as NEPA and the ESA. This interest differs in a meaningful sense from NTEC’s and
the Navajo Nation’s sovereign interest in ensuring
that the Mine and Power Plant continue to operate
and provide profits to the Navajo Nation. If the district
court were to hold that NEPA or the ESA required
more analysis that would delay mining activities, or
that one of the federal agencies’ analyses underlying
the approval was flawed, Federal Defendants’ interest
might diverge from that of NTEC. As we suggested in
White, a holding that one or both of these statutes

22a
required something other than what Federal Defendants have interpreted them to require could similarly
change Federal Defendants’ planned actions, affecting
the lease, rights-of-way, and permits at stake.
This case is unlike Southwest, because while Federal Defendants have an interest in defending their
own analyses that formed the basis of the approvals at
issue, here they do not share an interest in the outcome
of the approvals—the continued operation of the Mine
and Power Plant. And no party in Southwest had explained how the tribe’s “sovereignty would be implicated,” 150 F.3d at 1154, as the Navajo Nation has explained here. This case is also distinguishable from
Alto, where the tribe had specifically granted BIA final
decisionmaking authority over tribal membership issues, making it more plausible that the government
would represent the tribe’s interest—or that the government’s interest and the tribe’s interest had become
one and the same.
Plaintiffs resist the conclusion that no existing
party can adequately represent NTEC’s interest, arguing that APS, as operator and part owner of the Power
Plant, can do so even if Federal Defendants cannot. In
Southwest, we noted that the presence of other cities
that were financially invested in, and dependent for
their water supply upon, the facility lessened the risk
that the Community’s interest would be impaired.
Here, APS shares at least some of NTEC’s and the
Navajo Nation’s financial interest in the outcome of
the case. But APS does not share the Navajo Nation’s
sovereign interest in controlling its own resources, and
in the continued operation of the Mine and Power
Plant and the financial support that such operation
provides. The Navajo Nation’s interest is tied to its

23a
very ability to govern itself, sustain itself financially,
and make decisions about its own natural resources.
Because no other party to the litigation can adequately
represent these interests, the district court did not err
in determining that NTEC is a party that must be
joined if feasible under Rule 19(a).
B.
Rule 19 requires us next to ask whether NTEC
can feasibly be joined as a party to this litigation. Reviewing de novo, see Peabody W. Coal Co., 400 F.3d at
778, we hold that, due to tribal sovereign immunity, it
cannot be.
“Tribal sovereign immunity protects Indian tribes
from suit absent express authorization by Congress or
clear waiver by the tribe. This immunity applies to the
tribe’s commercial as well as governmental activities.”
Cook v. AVI Casino Enters., Inc., 548 F.3d 718, 725
(9th Cir. 2008) (citation omitted). “[T]he settled law of
our circuit is that tribal corporations acting as an arm
of the tribe enjoy the same sovereign immunity
granted to a tribe itself.” Id.
Here, it is undisputed that Congress has not abrogated any relevant aspect of the Navajo Nation’s tribal
immunity, and that the Navajo Nation has not waived
its immunity. The question is thus whether NTEC
shares that immunity.
In Allen v. Gold Country Casino, 464 F.3d 1044
(9th Cir. 2006), we had “little doubt that [a] Casino
function[ed] as an arm of the Tribe” that owned and
operated it, and that the casino therefore “enjoy[ed]
the Tribe’s immunity from suit.” Id. at 1047. In that
case, the casino had been authorized by tribal ordinance and an interstate gaming compact; the casino

24a
served to promote the tribe’s self-sufficiency, economic
development, and employment opportunities; and the
economic advantages of the casino inured to the benefit of the tribe such that “[i]mmunity of the Casino directly protect[ed] the sovereign Tribe’s treasury.” Id.
at 1046–47; see also Cook, 548 F.3d at 726 (holding
that a corporation created by a tribe through tribal ordinance and intergovernmental agreement that was
wholly owned and managed by the tribe, and from
which the benefits flowed to the tribe, enjoyed the
tribe’s sovereign immunity).
Here, NTEC is wholly owned by the Navajo Nation and is organized pursuant to Navajo law. It was
created specifically so that the Navajo Nation could
purchase the Mine. NTEC’s profits go entirely to the
Navajo Nation, and those profits support the Navajo
Nation’s ability to govern and financially sustain itself. The district court was therefore correct that
NTEC is an “arm” of the Navajo Nation that enjoys the
Nation’s immunity from suit and cannot be joined to
this action.7
7

Plaintiffs argue that the court could order joinder of NTEC’s
chief executive officer pursuant to the Ex parte Young doctrine.
That doctrine “permits actions for prospective non-monetary relief against state or tribal officials in their official capacity to enjoin them from violating federal law, without the presence of the
immune State or tribe.” Salt River Project Agric. Improvement &
Power Dist. v. Lee, 672 F.3d 1176, 1181 (9th Cir. 2012) (citing Ex
parte Young, 209 U.S. 123 (1908)); see also Vann v. U.S. Dep’t of
Interior, 701 F.3d 927 (D.C. Cir. 2012). But both Salt River and
Vann, on which Plaintiffs rely in making this argument, involved
claims against tribes as defendants, so it was possible for a tribal
official, rather than the tribe itself, to be named as defendant pursuant to Ex parte Young. Plaintiffs’ claims here are that Federal

25a
C.
Because NTEC is a required party that cannot
feasibly be joined, we must next determine “whether,
in equity and good conscience, the action should proceed among the existing parties or should be dismissed.” Fed. R. Civ. P. 19(b).
1.
To evaluate whether an action could fairly proceed
without a required party, we consider the following
factors:
(1) the extent to which a judgment rendered in
the [party’s] absence might prejudice that
[party] or the existing parties;
(2) the extent to which any prejudice could be
lessened or avoided by:
(A) protective provisions in the judgment;
(B) shaping the relief; or
(C) other measures;
(3) whether a judgment rendered in the
[party’s] absence would be adequate; and
(4) whether the plaintiff would have an adequate remedy if the action were dismissed for
nonjoinder.
Fed. R. Civ. P. 19(b). The Rule 19(b) factors “are nonexclusive.” Republic of Philippines v. Pimentel, 553
U.S. 851, 862 (2008).
In general, “[i]f no alternative forum exists, [a
court] should be ‘extra cautious’ before dismissing an
Defendants violated environmental laws—not that the Navajo
Nation itself did. The Ex parte Young doctrine therefore has no
role to play here.

26a
action.” Kescoli, 101 F.3d at 1311 (quoting Makah, 910
F.2d at 560). But “[i]f the necessary party is immune
from suit, there may be ‘very little need for balancing
Rule 19(b) factors because immunity itself may be
viewed as the compelling factor.’” Id. (quoting Confederated Tribes v. Lujan, 928 F.2d 1496, 1499 (9th Cir.
1991)); see also Am. Greyhound Racing, Inc., 305 F.3d
at 1025 (“[S]ome courts have held that sovereign immunity forecloses in favor of tribes the entire balancing process under Rule 19(b), but we have continued
to follow the four-factor process even with immune
tribes.”). Indeed, we have observed that there is a “wall
of circuit authority” in favor of dismissing actions in
which a necessary party cannot be joined due to tribal
sovereign immunity—“virtually all the cases to consider the question appear to dismiss under Rule 19,
regardless of whether [an alternate] remedy is available, if the absent parties are Indian tribes invested
with sovereign immunity.” White, 765 F.3d at 1028.
2.
Applying the Rule 19(b) factors, we hold that the
district court did not err in concluding that the litigation could not, in good conscience, continue in NTEC’s
absence.
Prejudice, the first factor in the Rule 19(b) analysis, “largely duplicates the consideration that made a
party necessary under Rule 19(a),” Am. Greyhound
Racing, Inc., 305 F.3d at 1025, and clearly favors dismissal in this case. The Navajo Nation and NTEC
would be prejudiced if this lawsuit were to proceed and
Plaintiffs were to prevail—at stake is an estimated 40
to 60 million dollars per year in revenue for the Navajo
Nation, as well as its ability to use its natural resources how it chooses.

27a
The second factor, the court’s ability to shape relief so as to avoid prejudice, likewise favors dismissal.
Although relief could be shaped to avoid prejudice in
the short term, such as by remanding for further administrative review without vacating the permits and
approval decisions in the meantime, the Navajo Nation inevitably would be prejudiced if Plaintiffs ultimately succeeded and if, after further NEPA and ESA
processes, Federal Defendants were not able to come
to the same decisions without imposing new restrictions or requirements on the Mine or Power Plant.
The third factor, on the other hand, weighs
against dismissal. A judgment rendered in NTEC’s absence would be adequate and would not create conflicting obligations, because it is Federal Defendants’ duty,
not NTEC’s, to comply with NEPA and the ESA.
The fourth factor depends on whether Plaintiffs
would have an alternate remedy if this suit is dismissed. Were this suit dismissed, Plaintiffs would
have no alternate forum in which to sue Federal Defendants for their alleged procedural violations under
NEPA and the ESA. NTEC argues, however, that
Plaintiffs may be able to “raise environmental claims
in Navajo courts” under Navajo law.
We need not decide whether any alternate remedy
is available in the Navajo Nation courts for the environmental concerns motivating Plaintiffs’ challenge to
the mining operations at issue here. Even assuming
that no alternate remedy exists, and that both the
third and fourth factors therefore weigh against dismissal, we would hold that dismissal is proper. We
have recognized that the lack of an alternative remedy
“is a common consequence of sovereign immunity.” Id.
Accordingly, “we have regularly held that the tribal

28a
interest in immunity overcomes the lack of an alternative remedy or forum for the plaintiffs.” Id. Mindful of
the “wall of circuit authority” in favor of dismissing an
action where a tribe is a necessary party, White, 765
F.3d at 1028, we agree with the district court that this
litigation cannot, in good conscience, continue in
NTEC’s absence.
3.
Finally, Plaintiffs and the United States urge us
to apply the “public rights” exception to hold that this
litigation can continue in NTEC’s absence.8 The public
rights exception is a limited “exception to traditional
joinder rules” under which a party, although necessary, will not be deemed “indispensable,” and the litigation may continue in the absence of that party. Conner v. Burford, 848 F.2d 1441, 1459 (9th Cir. 1988). We
hold that the exception does not apply here.
The public rights exception is reserved for litigation that “transcend[s] the private interests of the litigants and seek[s] to vindicate a public right.” Kescoli,
101 F.3d at 1311. The public rights exception may apply in a case that could “adversely affect the absent
parties’ interests,” but “the litigation must not ‘destroy
the legal entitlements of the absent parties’” for the
exception to apply. Id. (emphasis added) (quoting Conner, 848 F.2d at 1459).

8

Federal Defendants did not file an answering brief; instead
the United States filed a brief as amicus curiae arguing that “federal agencies and officers are normally the only necessary defendants in” federal suits challenging agency action. Answering briefs
defending the grounds of the district court’s dismissal were filed
by only NTEC and APS.

29a
The doctrine derives from the Supreme Court’s decision in National Licorice Co. v. N.L.R.B., 309 U.S.
350 (1940), in which the Court allowed a suit to proceed in the absence of necessary parties because it involved enforcement of public rights. In National Licorice, a company was the subject of a National Labor
Relations Board (“NLRB”) action challenging as violative of federal labor laws contracts the company had
procured from its employees. Id. at 351–56. The defendant company argued that those absent employees
were necessary and indispensable parties to the NLRB
action. Id. at 356. The Court held that the employees
did not need to be joined because the case was “narrowly restricted to the protection and enforcement of
public rights”—specifically, the public’s interest in
“the prevention of unfair labor practices.” Id. at 363–
64. Analogizing to actions brought by the government
under the Sherman Antitrust Act or orders entered by
the Federal Trade Commission, id. at 365–66, the
Court held that “the public right was vindicated by restraining the unlawful actions of the defendant.” Id. at
366. It also reasoned that the absent employees’ legal
entitlements would not be destroyed because the employees “were left free to assert such legal rights as
they might have acquired under their contracts.” Id.
We applied the public rights exception to allow
suit to proceed in Conner v. Burford, where the plaintiffs sued BLM alleging that its sale of oil and gas
leases in two national forests violated NEPA and the
ESA. 848 F.2d at 1442–43. BLM had sold two different
types of leases: for one type, lessees were prohibited
“from occupying or using the surface of the leased land
without further specific approval from . . . BLM”; for
the other, the government was authorized to impose

30a
conditions on surface-disturbing activities, but not to
altogether preclude such activities. Id. at 1444. During
the ESA consultation process, Fish and Wildlife and
the U.S. Forest Service decided to analyze the environmental effects of the lease sales only, and not those of
post-leasing activities. Id. at 1444. The district court
entered judgment in the plaintiffs’ favor, reasoning
that NEPA required a comprehensive EIS that evaluated not only the sale of a lease but also “the cumulative effects of successive, interdependent steps culminating in oil and gas development and production.” Id.
Several lessees attempted to intervene, arguing that
they were necessary and indispensable parties. Id. at
1445.
Clarifying the district court’s order, we “enjoin[ed]
the federal defendants from permitting any surfacedisturbing activity to occur on any of the leases [of either type] until they ha[d] fully complied with NEPA
and [the] ESA.” Id. at 1461. We recognized that the
contracts themselves, however, “were not invalidated
and further actions construing rights under them
[were] not precluded.” Id. at 1460–61. We thus held
that the only thing foreclosed by the district court’s
judgment was the “lessees’ ability to get ‘specific performance’ [on their contracts] until the government
complie[d] with NEPA and the ESA,” which was “insufficient to make the lessees indispensable to [the] litigation.” Id. at 1461. The leaseholders still retained
“many of the fundamental attributes of their contracts,” given that “significant economic value inheres
in the exclusive right to engage in oil and gas activities, should any be allowed.” Id. Because “[t]he appellees’ litigation against the government [did] not purport to adjudicate the rights of current lessees,” but

31a
rather to “enforce the public right to administrative
compliance with the environmental protection standards of NEPA and the ESA,” the public rights exception applied. Id. at 1460.
In Kescoli, by contrast, we declined to apply the
public rights exception and thus affirmed dismissal of
the suit. 101 F.3d at 1312. We reasoned that “if the
action proceeded in the absence of the Navajo Nation
and the Hopi Tribe, the rights of their members under
the lease agreements could be significantly affected.”
Id. at 1311–12. “The litigation also threaten[ed] the
Navajo Nation’s and the Hopi Tribe’s sovereignty by
attempting to disrupt their ability to govern themselves and to determine what is in their best interests
[by] balancing potential harm caused by the mining
operations against the benefits of the royalty payments.” Id. at 1312. The litigation therefore was “not
limited to ensuring an agency’s future compliance with
statutory procedures,” and was “not one in which the
risk of prejudice to the Navajo Nation and the Hopi
Tribe [was] nonexistent or minimal.” Id.
This case is more like Kescoli than Conner. Here,
the leases and rights-of-way are valid only with approval by BIA. If the Record of Decision that granted
such approval were vacated, then those agreements
would be invalid, and NTEC would lose all associated
legal rights. And, unlike in Conner where surface-disturbing activity had apparently not even been authorized or begun, the activities approved by the Record of
Decision here are already taking place. This litigation
therefore threatens to destroy NTEC’s existing legal
entitlements. See Am. Greyhound Racing, Inc., 305
F.3d at 1026 (rejecting application of the public rights
exception, reasoning that the “litigation targeted the

32a
extension or renegotiation of the compacts themselves,” and did “not incidentally affect the gaming
tribes in the course of enforcing some public right,” but
rather was “aimed at the tribes and their gaming”);
Kettle Range Conservation Grp. v. U.S. Bureau of
Land Mgmt., 150 F.3d 1083, 1087 (9th Cir. 1998) (distinguishing Conner and holding that where title to
land transferred in a challenged transaction had already vested in private parties, an order declaring the
land exchange void would destroy the parties’ legal entitlements, rendering the public rights exception inapplicable).
We acknowledge that Plaintiffs’ claims relate to
public rights insofar as they challenge only Federal
Defendants’ NEPA and ESA processes. We also recognize that the practical effect of this litigation on
NTEC’s rights would depend on what, exactly, the outcome of the litigation would be if it proceeded. It is possible that, if the lawsuit continued, the district court
might grant judgment in favor of Federal Defendants,
or it might grant limited relief for Plaintiffs that would
not substantially impact NTEC’s rights.
We believe, however, that the question at this
stage must be whether the litigation threatens to destroy an absent party’s legal entitlements. See Kescoli,
101 F.3d at 1311–12 (holding that the public rights exception was inapplicable in part because “if the action
proceeded in the absence of [two tribes], the rights of
their members under the lease agreements could be
significantly affected” (emphasis added)); Shermoen v.
United States, 982 F.2d 1312, 1319 (9th Cir. 1992)
(“Because of the threat to the absent tribes’ legal entitlements, and indeed to their sovereignty, posed by the
present litigation, application of the public rights

33a
exception . . . would be inappropriate.”). Here, although Plaintiffs nominally seek only a renewed NEPA
and ESA process, the implication of their claims is that
Federal Defendants should not have approved the
mining activities in their exact form. The result Plaintiffs seek, therefore, certainly threatens NTEC’s legal
entitlements.
We also recognize, as the Tenth Circuit has
pointed out, that refusing to apply the public rights exception arguably “produce[s] an anomalous result” in
that “[n]o one, except [a] Tribe, could seek review of an
environmental impact statement covering significant
federal action relating to leases or agreements for development of natural resources on [that tribe’s] lands.”
Manygoats, 558 F.2d at 559. Or, at least, no one could
obtain such review unless the tribe were willing to
waive its immunity and participate in the lawsuit.
This result, however, is for Congress to address,
should it see fit, as only Congress may abrogate tribal
sovereign immunity. See Michigan v. Bay Mills Indian
Cmty., 572 U.S. 782, 790 (2014). It is undisputed that
Congress has not done so here.
The public rights exception therefore does not apply.
III.
For the foregoing reasons, we AFFIRM.

34a
APPENDIX B
________________________________
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Diné Citizens Against Ruining Our No. CV-16Environment, et al.,
08077-PCTPlaintiffs,
SPL
vs.
ORDER
Bureau of Indian Affairs, et al.,
Defendants.

Before the Court is Intervenor-Defendant Navajo
Transitional Energy Company’s Motion to Dismiss.
(Doc. 50.) For the reasons set forth below, IntervenorDefendant Navajo Transitional Energy Company’s
Motion to Dismiss is granted.
I.

Background

Plaintiffs Diné Citizens Against Ruining Our Environment (“Diné CARE”), San Juan Citizens Alliance,
Sierra Club, the Center for Biological Diversity, and
Amigos Bravos (collectively, “Citizens”) have filed suit
against the Bureau of Indian Affairs (“BIA”), United
States Department of the Interior (“DOI”), the Office
of Surface Mining, Reclamation and Enforcement
(“OSMRE”), Bureau of Land Management (“BLM”),
R.K. Zinke, in his official capacity as Secretary of the
United States Department of the Interior, and the
United States Fish and Wildlife Service (“FWS”) (collectively, “Federal Defendants”). (Doc. 1.) Plaintiffs allege that Federal Defendants violated the Endangered

35a
Species Act (“ESA”), the National Environmental Policy Act (“NEPA”), and the Administrative Procedure
Act (“APA”) in the approval of: (1) a twenty-five year
lease extension for operation of the Four Corners
Power Plant (“FCPP”) by Intervenor-Defendant Arizona Public Service Company, (2) the renewal of certain right-of-ways for existing transmission lines, and
(3) a 5,568-acre expansion of strip mining in the Navajo Mine’s Pinabete area. (Doc. 1 at 4-5.) Federal Defendants’ actions were predicated on a Biological Opinion issued by FWS in April 2015, which Plaintiffs characterize as a mistaken determination that the “proposed authorizations for continued operations of the
[FCPP] and the Navajo Mine . . . will neither jeopardize the survival and recovery of, nor adversely modify
designated critical habitat of the Colorado pikeminnow and razorback sucker, two endangered fish native
to the San Juan River, in violation of the ESA.” (Doc.
1 at 3.) Plaintiffs contend that remaining Federal Defendants’ reliance on FWS’ Biological Opinion violated
the ESA and that Federal Defendants’ subsequent
Record of Decision and Final Environmental Impact
Statement were issued in violation of NEPA. (Doc. 1 at
3-4.) This litigation followed.
In August 2016, Arizona Public Service Company
(“APS”)—on its own behalf and as operating agent for
the FCPP—was allowed to intervene as of right as a
party defendant. (Doc. 26.) Navajo Transitional Energy Company (“NTEC”) filed a Limited Motion to Intervene (Doc. 31), which this Court granted on October
28, 2016. (Doc. 49.) Intervenor-Defendant NTEC subsequently filed a Motion to Dismiss pursuant to Rules
12(b)(7) and 19 of the Federal Rules of Civil Procedure. (Doc. 50 at 2.) All parties, with the exception of

36a
Intervenor-Defendant APS (Doc. 58), oppose Intervenor-Defendant NTEC’s Motion to Dismiss. (Docs. 56,
57.)
II. Discussion
Intervenor-Defendant NTEC contends that it is a
required party under Rule 19 of the Federal Rules of
Civil Procedure, that cannot be joined by virtue of its
sovereign immunity, and that the present action
should therefore be dismissed in equity and good conscience. (Doc. 50 at 1-2.) The Court agrees.
A. Required Party
“Rule 19 sets the framework for determining
whether a party is required and indispensable.”
Friends of Amador Cty. v. Salazar, 554 F. App’x 562,
564 (9th Cir. 2014). First, the Court must determine
whether Intervenor-Defendant NTEC is a “required
party.” Fed. R. Civ. P. 19(a)(1). In making this determination, the Court must decide: (1) if it can accord
complete relief among the existing parties and (2)
whether Intervenor-Defendant NTEC has a “legally
protected interest” in the subject of the present litigation which would be impaired or impeded if it was not
party to this suit. Fed. R. Civ. P. 19(a)(1). If either inquiry is answered in the affirmative, then IntervenorDefendant NTEC is a required party “and must be
joined.” White v. Univ. of Cal., 765 F.3d 1010, 1026
(9th Cir. 2014). This inquiry “is a practical one and fact
specific.” Makah Indian Tribe v. Verity, 910 F.2d 555,
558 (9th Cir. 1990).
A party is required under Rule 19 if it “claims an
interest relating to the subject of the action.” Fed. R.
Civ. P. 19(a)(1)(B). The language of Rule 19 makes it
clear that “the finding that a party is necessary to the

37a
action is predicated only on that party having a claim
to an interest.” Shermoen v. United States, 982 F.2d
1312, 1317 (9th Cir. 1992) (emphasis in original). A legally protected interest need not be “property in the
sense of the due process clause.” Am. Greyhound Racing, Inc. v. Hull, 305 F.3d 1015, 1023 (9th Cir. 2002).
Yet, this interest must amount to “more than a financial stake and more than speculation about a future
event.” Makah, 910 F.2d at 558 (internal citations
omitted).
Intervenor-Defendant NTEC satisfies the threshold for having a legally protected interest under Rule
19(a)(1)(B). Just as in Kescoli v. Babbitt, the retroactive relief Plaintiffs seek could directly affect the Navajo Nation (acting through its corporation, IntervenorDefendant NTEC) by disrupting its “interests in their
lease agreements and the ability to obtain the bargained-for royalties and jobs.” 101 F.3d 1304, 1310
(9th Cir. 1996). If successful, Plaintiffs’ challenges to
Federal Defendants’ actions—which the continued operation of Navajo Mine and Four Corners Power Plant
are conditioned upon—could simultaneously jeopardize the solvency of the Navajo Nation1 and challenge

1
The Navajo Nation formed Navajo Transitional Energy
Company in 2013 for the purposes of purchasing the Navajo Mine
from BHP Billiton for $85 million with a three-year loan. (Doc. 32
¶ 9.) In 2016, NTEC obtained a new loan for $115 million, which
it used to pay off the original note and to maintain working capital. (Id). This 2016 loan is secured by NTEC’s assets, which includes Navajo Mine. (Id). Hence, if operations at the Mine were
hindered, NTEC could possibly default on the 2016 loan and lose
ownership of the Mine—a loss that would cost the Navajo Nation
millions of dollars. (Id).

38a
the economic development strategies it has chosen to
pursue. Such affronts to the Nation’s sovereignty represent a legally protected interest under Rule 19.
“[A]n absent party’s ability to protect its interests
will not be impaired by its absence from the suit where
its interests will be adequately represented by existing
parties to the suit.” Alto v. Black, 738 F.3d 1111, 1127
(9th Cir. 2013) (citing Washington v. Daley, 173 F.3d
1158, 1167 (9th Cir. 1999)). Here, Plaintiffs and Federal Defendants contend that the United States can
appropriately represent the interests of non-parties in
this litigation without the presence of Intervenor-Defendant NTEC. (Docs. 56 at 3; 57 at 19-20.) Federal
Defendants maintain that there is a shared common
interest between Federal Defendants and all non-parties, including Intervenor-Defendant NTEC, “in having the analyses and approvals upheld.” (Doc. 56 at 2.)
The Court disagrees.
To discern if Federal Defendants adequately represent Intervenor-Defendant NTEC, the Court looks
to: (1) “whether the interests of a present party to the
suit are such it will undoubtedly make all of the absent
party’s arguments;” (2) “whether the party is capable
of and willing to make such arguments;” and (3)
“whether the absent party would offer any necessary
element to the proceedings that the present parties
would neglect.” Salt River Project Agric. Improvement
& Power Dist., 672 F.3d 1176, 1180 (9th Cir. 2002) (internal citation omitted). Here, Federal Defendants are
primarily concerned with being able to “defend their
analyses and decisions in this litigation.” (Doc. 56 at
2.) As discussed, Intervenor-Defendant NTEC’s interests in the outcome of this case far exceed Federal Defendants’ interest in “defending the validity of the

39a
government’s environmental compliance and subsequent approval of the leases, permits, and rights of
way.” (Doc. 56 at 9.) Presently, Federal Defendants
and Intervenor-Defendant NTEC interests are
aligned—both advocate for defending Federal Defendants’ decisions which provide for the continued operation of the Navajo Mine and the FCPP—albeit for different reasons. Over the course of litigation, however,
these different reasons “could lead to a later divergence of interests.” White, 765 F.3d at 1027. If that
were to occur, it is unlikely that Federal Defendants—
in its effort to defend its decisions and processes—
would assert the same arguments that Intervenor-Defendant NTEC would to protect its sizeable investments.
B. Sovereign Immunity
Having determined that Intervenor-Defendant
NTEC is a required party to the present litigation under Rule 19(a)(1), the Court must next consider
whether it can be feasibly joined as a party. Given the
sovereign immunity it enjoys as an “arm” of the Navajo Nation, Intervenor-Defendant NTEC cannot be
joined.
“Indian tribes are ‘domestic dependent nations’
that exercise ‘inherent sovereign authority.’” Mich. v.
Bay Mills Indian Cmty., 134 S. Ct. 2024, 2030 (2014)
(internal citations omitted). One of the core aspects of
such inherent sovereignty “is the common law immunity from suit traditionally enjoyed by sovereign powers.” Id. (internal citations and quotation marks omitted). In Bay Mills, the United States Supreme Court
reaffirmed the sovereign immunity of American Indian tribes, noting “we have time and again treated

40a
the ‘doctrine of tribal immunity [as] settled law.’” 134
S. Ct. at 2030-31 (citing Kiowa Tribe of Okla. v. Mfg.
Tech, Inc., 523 U.S. 751, 756 (1998)). Tribal sovereign
immunity can be diminished by congressional waiver
or abrogation. United States ex rel. Cain v. Salish Kootenai College, Inc., 862 F.3d 939, 943 (9th Cir. 2017).
A tribe may also waive its own immunity, but such
waiver will not be inferred and “is effective only if it is
‘unequivocally expressed.’” Quinault Indian Nation v.
Pearson, 2017 WL 3707898, at *2 (9th Cir. Aug. 29,
2017) (citing Santa Clara Pueblo v. Martinez, 436 U.S.
49, 58 (1978)).
“Tribal sovereign immunity not only protects
tribes themselves, but also extends to arms of the tribe
acting on behalf of the tribe.” White, 765 F.3d at 1025
(internal citation omitted). Courts employ a multi-factor analysis when determining whether an entity of a
tribe enjoys sovereign immunity as “an arm of the
tribe” including: “(1) the method of creation of the economic entities; (2) their purpose; (3) their structure,
ownership, and management, including the amount of
control the tribe has over entities; (4) the tribe’s intent
with respect to the sharing of its sovereign immunity;
and (5) the financial relationship between the tribe
and the entities.” Id. (internal citation omitted).
Applying undisputed facts, it is clear that Intervenor-Defendant Navajo Transitional Energy Company
enjoys sovereign immunity as an “arm” of the Navajo
Nation. Established in 2013, NTEC is a wholly-owned
Navajo corporation organized pursuant to Navajo law.
(Doc. 32 ¶¶ 3-5.) NTEC was created by the Navajo Nation “to protect and promote the economic and financial interests of the Nation and the Navajo people
while remaining dedicated to responsible manage-

41a
ment of the Nation’s natural resources.” (Doc. 32 ¶ 3.)
Specifically, NTEC was formed so that the Nation
could purchase the Navajo Mine from BHP Billiton,
which it did in 2013. (Doc. 32 ¶ 9.)
NTEC is organized exclusively under Navajo law.
(Doc. 32 ¶ 7.) The Navajo Nation’s role in management
includes representation by “a Member Representative
Group consisting of five members of the Navajo Nation
Council.” (Doc. 32 ¶ 7.) The profits of NTEC are those
of the Navajo Nation; distributions of net income are
made to the Nation in accordance with NTEC’s Formation Resolution and Operating Agreement. (Doc. 32
¶ 8.) With regard to shared sovereign immunity, the
Navajo Nation explicitly vested NTEC with sovereign
immunity. A resolution by the Navajo Nation Council,
dated October 24, 2013, reads: “The Navajo Nation is
a sovereign, and as an arm and subordinate instrumentality of the Navajo Nation, the [Navajo Transitional Energy] Company must be provided all the protections, privileges, benefits, and authorities of its association and affiliation with a sovereign.” (Doc. 32,
Ex. 1 at 1.) NTEC’s Operating Agreement further confirms that it was the Navajo Nation’s intent that
NTEC enjoy its sovereign immunity. (Doc. 32, Ex. 1 at
36.) Given these undisputed facts, Intervenor-Defendant NTEC is an “arm of the tribe” for purposes of sovereign immunity.
C. Indispensable Party
Intervenor-Defendant NTEC is a required party
that cannot be joined because it enjoys sovereign immunity from suit. Accordingly, the Court must decide
“whether, in equity and good conscience, the action
should proceed among the existing parties or should

42a
be dismissed.” Fed. R. Civ. P. 19(b). Determination of
“whether a party is indispensable ‘can only be determined in the context of particular litigation.’” Am.
Greyhound, 305 F.3d at 1018 (internal citation omitted). This decision, however, is made considerably easier because Intervenor-Defendant has sovereign immunity as an “arm” of the Navajo Nation and a “wall
of circuit authority” supports dismissal of the present
action. White, 765 F.3d at 1028. When presented with
similar circumstances, “virtually all the cases to consider the question appear to dismiss under Rule 19,
regardless of whether a remedy is available, if the absent parties are Indian tribes invested with sovereign
immunity.” Id. (citing Am. Greyhound, 305 F.3d at
1015; Dawavendewa v. Salt River Project Agric. Improvement & Power Dist., 276 F.3d 1150 (9th Cir.
2002); Manybeads v. United States, 209 F.3d 1164 (9th
Cir. 2000); Clinton v. Babbitt, 180 F.3d 1081 (9th Cir.
1999); Kescoli v. Babbitt, 101 F.3d 1304 (9th Cir.
1996); McClendon v. United States, 885 F.2d 627 (9th.
Cir. 1989)).
III. Conclusion
Intervenor-Defendant is a required party under
Rule 19 of the Federal Rules of Civil Procedure because it has a protected interest in the subject of the
present litigation that only it can adequately protect.
As an arm of the Navajo Nation, however, IntervenorDefendant NTEC enjoys sovereign immunity and
since it has neither explicitly waived that immunity,
nor has such immunity been abrogated or waived by
Congress, it follows that Intervenor-Defendant NTEC
cannot be joined. In equity and good conscience, the
present case cannot continue without Intervenor-Defendant NTEC. Accordingly,

43a
IT IS ORDERED:
1. That Intervenor-Defendant NTEC’s Motion to Dismiss (Doc. 50) is granted;
2. That this action is dismissed with prejudice in
its entirety;
3. That the Clerk of Court shall terminate this action;
and
4. That the Clerk of Court shall enter judgment accordingly.
Dated this 11th day of September, 2017.
/s/ Steven P. Logan
Honorable Steven P. Logan
United States District Judge

44a
APPENDIX C
________________________________
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
DINE CITIZENS AGAINST
RUINING OUR
ENVIRONMENT; et al.,

No. 17-17320

D.C. No. 3:16cv-08077-SPL
v.
District of
BUREAU OF INDIAN AFFAIRS; Arizona,
Prescott
et al.,
Plaintiffs-Appellants,

Defendants-Appellees,
ARIZONA PUBLIC SERVICE
COMPANY; NAVAJO
TRANSITIONAL ENERGY
COMPANY LLC,

ORDER

Intervenor-DefendantsAppellees.
FILED DEC 11, 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
________________________________
Before: IKUTA and FRIEDLAND, Circuit Judges, and
BLOCK,* District Judge.

*

The Honorable Frederic Block, United States District Judge
for the Eastern District of New York, sitting by designation.

45a
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35. The petition for rehearing en banc is DENIED.

